<html>
<title> - H.R. 3786, H.R. 3942 and H.R. 4622</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
                  H.R. 3786, H.R. 3942 and H.R. 4622
=======================================================================

                          LEGISLATIVE HEARING

                               before the

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

                                 of the

                         COMMITTEE ON RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              May 7, 2002

                               __________

                           Serial No. 107-114

                               __________

           Printed for the use of the Committee on Resources



 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house
                                   or
         Committee address: http://resourcescommittee.house.gov







                           U.S. GOVERNMENT PRINTING OFFICE
79-480                            WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                         COMMITTEE ON RESOURCES

                    JAMES V. HANSEN, Utah, Chairman
       NICK J. RAHALL II, West Virginia, Ranking Democrat Member

Don Young, Alaska,                   George Miller, California
  Vice Chairman                      Edward J. Markey, Massachusetts
W.J. ``Billy'' Tauzin, Louisiana     Dale E. Kildee, Michigan
Jim Saxton, New Jersey               Peter A. DeFazio, Oregon
Elton Gallegly, California           Eni F.H. Faleomavaega, American 
John J. Duncan, Jr., Tennessee           Samoa
Joel Hefley, Colorado                Neil Abercrombie, Hawaii
Wayne T. Gilchrest, Maryland         Solomon P. Ortiz, Texas
Ken Calvert, California              Frank Pallone, Jr., New Jersey
Scott McInnis, Colorado              Calvin M. Dooley, California
Richard W. Pombo, California         Robert A. Underwood, Guam
Barbara Cubin, Wyoming               Adam Smith, Washington
George Radanovich, California        Donna M. Christensen, Virgin 
Walter B. Jones, Jr., North              Islands
    Carolina                         Ron Kind, Wisconsin
Mac Thornberry, Texas                Jay Inslee, Washington
Chris Cannon, Utah                   Grace F. Napolitano, California
John E. Peterson, Pennsylvania       Tom Udall, New Mexico
Bob Schaffer, Colorado               Mark Udall, Colorado
Jim Gibbons, Nevada                  Rush D. Holt, New Jersey
Mark E. Souder, Indiana              Anibal Acevedo-Vila, Puerto Rico
Greg Walden, Oregon                  Hilda L. Solis, California
Michael K. Simpson, Idaho            Brad Carson, Oklahoma
Thomas G. Tancredo, Colorado         Betty McCollum, Minnesota
J.D. Hayworth, Arizona
C.L. ``Butch'' Otter, Idaho
Tom Osborne, Nebraska
Jeff Flake, Arizona
Dennis R. Rehberg, Montana

                      Tim Stewart, Chief of Staff
           Lisa Pittman, Chief Counsel/Deputy Chief of Staff
                Steven T. Petersen, Deputy Chief Counsel
                    Michael S. Twinchek, Chief Clerk
                 James H. Zoia, Democrat Staff Director
               Jeffrey P. Petrich, Democrat Chief Counsel
                                 ------                                

      SUBCOMMITTEE ON NATIONAL PARKS, RECREATION, AND PUBLIC LANDS

               GEORGE P. RADANOVICH, California, Chairman
      DONNA M. CHRISTENSEN, Virgin Islands Ranking Democrat Member

Elton Gallegly, California            Dale E. Kildee, Michigan
John J. Duncan, Jr., Tennessee       Eni F.H. Faleomavaega, American 
 Joel Hefley, Colorado                   Samoa
Wayne T. Gilchrest, Maryland         Frank Pallone, Jr., New Jersey
Walter B. Jones, Jr., North          Tom Udall, New Mexico
    Carolina,                        Mark Udall, Colorado
  Vice Chairman                      Rush D. Holt, New Jersey
Mac Thornberry, Texas                Anibal Acevedo-Vila, Puerto Rico
Chris Cannon, Utah                   Hilda L. Solis, California
Bob Schaffer, Colorado               Betty McCollum, Minnesota
Jim Gibbons, Nevada
Mark E. Souder, Indiana
Michael K. Simpson, Idaho
Thomas G. Tancredo, Colorado
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on May 7, 2002......................................     1

Statement of Members:
    Miller, Hon. George, a Representative in Congress from the 
      State of California........................................     3
        Prepared statement on H.R. 3942..........................     4
    Radanovich, Hon. George P., a Representative in Congress from 
      the State of California....................................     1
        Prepared statement on H.R. 3786, H.R. 3942 and H.R. 4622.     2

Statement of Witnesses:
    Davidson, Todd, Vice Chairman, Western States Tourism Policy 
      Council, Portland, Oregon..................................    24
        Prepared statement on H.R. 4622..........................    25
    Hale, Betsey, Commissioner, Montrose County, Colorado........    33
        Prepared statement on H.R. 4622..........................    35
    Loomis, Laura, Director of Visitor Experience, National Parks 
      Conservation Association, Washington, D.C..................    36
        Prepared statement on H.R. 4622..........................    38
    Manning, Gloria, Associate Deputy Chief, National Forest 
      System, Forest Service, U.S. Department of Agriculture, 
      Washington, D.C............................................    13
        Prepared statement on H.R. 4622..........................    15
    Ring, Richard G., Associate Director, Park Operations and 
      Education, National Park Service, U.S. Department of the 
      Interior, Washington, D.C..................................    17
        Prepared statement on H.R. 3786..........................    19
        Prepared statement on H.R. 3942..........................    20
    Scarlett, P. Lynn, Assistant Secretary for Policy, Management 
      and Budget, U.S. Department of the Interior, Washington, 
      D.C........................................................     5
        Prepared statement on H.R. 4622..........................     7
    Thomas, Stephen, Northern Plains Regional Director, Sierra 
      Club, Sheridan, Wyoming....................................    43
        Prepared statement on H.R. 4622..........................    45
    Warren, Bob, Chairman, National Alliance of Gateway 
      Communities, Redding, California...........................    28
        Prepared statement on H.R. 4622..........................    30


 Legislative Hearing on H.R. 3786, To revise the boundary of the Glen 
Canyon National Recreation Area in the States of Utah and Arizona; H.R. 
 3942, To adjust the boundary of the John Muir National Historic Site, 
and for other purposes; and H.R. 4622, To require Federal land managers 
    to support, and to communicate, coordinate, and cooperate with, 
   designated gateway communities, to improve the ability of gateway 
    communities to participate in Federal land management planning 
 conducted by the Forest Service and agencies of the Department of the 
   Interior, and to respond to the impacts of the public use of the 
 Federal lands administered by these agencies, and for other purposes.

                              ----------                              


                          Tuesday, May 7, 2002

                     U.S. House of Representatives

      Subcommittee on National Parks, Recreation, and Public Lands

                         Committee on Resources

                             Washington, DC

                              ----------                              

    The Subcommittee met, pursuant to call, at 2 p.m., in room 
1334, Longworth House Office Building, Hon. George Radanovich 
[Chairman of the Subcommittee] presiding.

      STATEMENT OF THE HONORABLE GEORGE P. RADANOVICH, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Radanovich. Good afternoon everybody and welcome to the 
Subcommittee this afternoon. The Subcommittee will come to 
order. We will be addressing testimony on three bills today, 
H.R. 3786, H.R. 3942 and H.R. 4622. Our first bill, H.R. 3786, 
is introduced by our Subcommittee colleague, Chris Cannon of 
Utah, and would authorize the Secretary of the Interior to 
revise the boundary of the Glen Canyon National Recreational 
Area in the States of Utah and Arizona as well as increase the 
overall acreage ceiling for the park unit.
    Our second bill, H.R. 3942, is introduced by our Committee 
colleague, Mr. George Miller of California, and would authorize 
the Secretary of the Interior to adjust the boundary of the 
John Muir National Historic Site to settle an ownership 
question over a small tract of land within the historic site. 
The last bill is H.R. 4622, which I introduced and would 
require Federal land managers to support, communicate 
coordinate and cooperate with ``gateway communities'' with 
units of the National Park System, the U.S. Fish and Wildlife 
Service lands, Bureau of Land Management holdings and U.S. 
forest service lands.
    I strongly believe that good communication, coordination, 
cooperation between gateway communities and Federal land 
managers can have an enormously positive impact upon these 
lands and the communities that surround them. Too often there 
is a sour relationship between Federal land managers and 
gateway communities due to poor communication and coordination.
    Those who view this legislation as something that is 
designed to help the gateway communities themselves are 
unfortunately viewing the legislation too narrowly and 
discounting the positive environmental benefits to the parks, 
forests, refuges and public lands that these good relationships 
can offer. I think we will hear from witnesses today who will 
attest to the positive environmental impact that good 
coordination and good information can have on national parks, 
not to mention the positive impact upon the local gateway 
community.
    As we examine this issue, it has been interesting to note, 
generally speaking, that agencies whose procedures and policies 
require close coordination generally enjoy better relationships 
with their gateway communities than agencies that don't. Last 
month, this Subcommittee examined the 2001 National Park 
Service management policies. These policies very broadly direct 
the local superintendent to monitor and actively participate in 
local planning and zoning decisions.
    In my mind, it would be unconscionable to expect that the 
local gateway communities should not enjoy a reciprocal 
relationship in which they are an active and meaningful 
participant in the same manner. I believe good coordination, 
communication and cooperation as the basis for informed 
decisionmaking and the very basis of good public policy.
    I look forward to hearing from the witnesses today about 
how this might be achieved. At this time, I ask unanimous 
consent that Congressman Miller be permitted to sit on the dais 
following the testimony. Without objection, so ordered. And I 
would like to thank all of our witnesses today especially those 
who have traveled from the west coast. We appreciate you being 
here today.
    [The prepared statement of Mr. Radanovich follows:]

Statement of The Honorable George P. Radanovich, Chairman, Subcommittee 
             on National Parks, Recreation and Public Lands

    Good afternoon and welcome to the hearing today. The Subcommittee 
will come to order. This afternoon, the Subcommittee on National Parks, 
Recreation, and Public Lands will hear testimony on three bills: H.R. 
3786, H.R. 3942, and H.R. 4622.
    Our first bill, H.R. 3786, introduced by our Subcommittee colleague 
Chris Cannon of Utah, would authorize the Secretary of Interior to 
revise the boundary of the Glen Canyon National Recreation Area in the 
States of Utah and Arizona as well as increase the overall acreage 
ceiling for the park unit.
    Our second bill, H.R. 3942, introduced by our Committee colleague 
George Miller of California, would authorize the Secretary of Interior 
to adjust the boundary of the John Muir National Historic Site to 
settle an ownership question over a small tract within the Historic 
Site.
    The last bill, H.R. 4622, which I introduced, would require Federal 
land managers to support, and communicate, coordinate, and cooperate 
with ``gateway'' communities near units of the National Park System, 
U.S. Fish and Wildlife Service lands, Bureau of Land Management 
holdings, and U.S. Forest Service lands. I strongly believe that good 
communication, coordination, and cooperation between gateway 
communities and federal land managers can have an enormously positive 
impact upon these lands and the communities that surround them. Too 
often there is a sour relationship between federal land managers and 
gateway communities due to poor communication and coordination.
    Those who view this legislation only as something that is designed 
to help the gateway communities themselves are unfortunately viewing 
the legislation too narrowly and discounting the positive environmental 
benefits to the parks, forests, refuges, and public lands that these 
good relationships can foster. I think we will hear from witnesses 
today who can attest to the positive environmental impact that good 
coordination and good information can have upon the parks, not to 
mention the positive impact upon the local gateway community. As we 
have examined this issue, it has been interesting to note that, 
generally speaking, agencies whose procedures and policies require 
close coordination generally enjoy better relationships with their 
gateway communities than agencies that do not.
    Last month, this Subcommittee examined the 2001 National Park 
Service Management Policies. These policies very broadly direct the 
local superintendent to monitor and actively participate in local 
planning and zoning decisions. In my mind, it would be unconscionable 
to expect that the local gateway communities should not enjoy a 
reciprocal relationship in which they are active and meaningful 
participants in the same manner. I believe good coordination, 
communication, and cooperation as the basis for informed decision 
making are the very basis of good public policy. I look forward to 
hearing from the witnesses today about how this might be achieved.
    At this time, I ask unanimous consent that Congressman Miller be 
permitted to sit on the dais following his testimony. Without 
objection, so ordered.
    I would like to thank all of our witnesses today, especially those 
who had to travel from the West Coast. We appreciate your being here 
today.
                                 ______
                                 
    And I understand Mrs. Christensen is on her way, but she is 
not here yet. With that, I think we are going to our first 
witness on H.R. 3942 to adjust the boundary of the John Muir 
National Historic Site and further purposes.
    George, welcome to the Committee.

 STATEMENT OF THE HONORABLE GEORGE MILLER, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Miller. Thank you very much and thank you for 
scheduling me to testify at this time on this legislation. This 
is a not monumental bill, although it is dealing with a 
monumental person, John Muir. My home district has the 
residence of John Muir in that district, and matter of fact, it 
is in my hometown of Martinez, California, where the Park 
Service has been able to preserve the house and the orchards 
and much of the land around this home for historical 
significance.
    In 1988, Congress enacted legislation to expand the Muir 
historic site. Included within the boundary was a 3.3 acre 
parcel owned by the city of Martinez, which was later donated 
to the National Park Service. Following a survey conducted as 
part of the development of the general management plan, we 
discovered there is a two-tenths of an acre triangle adjacent 
to the newly acquired land that did not belong to the city. In 
fact, we can't show that it belongs to anyone at the moment, 
which is unusual for California.
    The 9,500-square-foot parcel did not have a tax assessor, 
parcel number, no taxes have been collected since the 1960's. 
It appears the time when we were widening Highway 4, the land 
around this area was acquired--a larger parcel next to it was 
acquired from a Mary Pereira. Interestingly with all the 
Pereiras we have, we cannot find an heir to Mary Pereira in the 
area and obviously the park service would now like to be able 
to acquire this land.
    It is not very large, but it is very important because it 
would help us deal with the issue of parking. We have a number 
of festivals, a number of events. And just on weekends, people 
who now want to hike Mount Wanda, want to tour the John Muir 
home, picnic in the orchards, is growing every year, but it is 
on a very busy street with very little parking. This would 
allow us to add parking for 32 vehicles. It would allow us to 
have, during the week, parking for school buses and school 
children that come and visit this site. And it is our hope that 
we would be able to provide for this transfer.
    We would--the bill would allow the Park Service to acquire 
the land if an heir or former owner is identified or condemn 
the property if no heir is found. And it is fairly simple and 
straightforward. I must say that in all my time of riding out 
here and driving by on the freeway, I always thought why isn't 
this land used for parking? And then I found out nobody knew 
who owned it. Now they want to use it for parking, and I think 
it would be a great benefit to the historic site. And I 
appreciate your consideration of this legislation.
    Mr. Radanovich. Thank you very much, Mr. Miller.
    [The prepared statement of Mr. Miller follows:]

Statement of The Honorable George Miller, a Representative in Congress 
                      from the State of California

    Thank you for inviting me to testify today on H.R. 3942, a bill to 
adjust the boundary of the John Muir National Historic Site.
    My district is home to the residence of John Muir, his orchards, 
and Mt. Wanda, named for his daughter. In addition to its historical 
significance, the former Muir estate provides valuable open space in 
the rapidly growing Bay Area. In 1988 Congress enacted legislation to 
expand the John Muir Historic Site. Included within the boundary of the 
site expansion was a 3.3 acre parcel owned by the City of Martinez 
which was later donated to the National Park Service. Following a 
survey conducted as part of the development of the General Management 
Plan, the Park Service discovered that a .2 acre triangle adjacent to 
the newly acquired parcel did not belong to the City. In fact, it did 
not belong to anyone.
    The 9,500-square-foot parcel of land did not have a tax assessor 
parcel number and thus, the County tax assessor has not collected taxes 
on it since the 1960s. It appears that fee title to this area became 
ambiguous when the California Department of Public Works (now known as 
the California Department of Transportation) was acquiring lands for 
rights of way for State Route 4, which now intersects the Muir estate. 
During the process, a larger parcel adjacent to the Muir site was 
acquired in fee from the estate of Mary Pereira. The California 
Department of Public Works had only acquired the smaller parcel in 
question through a temporary easement which expired in 1967. Despite 
extraordinary measures to identify relatives or heirs of Mary Pereira, 
the Park Service has failed to locate a potential owner of this parcel.
    In order to meet the growing needs of site users, the Park Service 
would greatly benefit from a boundary adjustment to finally put to rest 
the question of property title to this small triangle of land. 
Enactment of this legislation would allow the Park Service to either 
acquire the land if an heir or former owner is identified or condemn 
the property if an heir is not found. Once the title to the land is 
clear, the Park Service would be free to begin construction on a 32 
vehicle parking area that would utilize the .2 acre parcel. This 9,500 
square foot addition would allow the proposed parking area to 
accommodate school buses and provide 12 additional parking spaces.
    I urge this subcommittee to bring this bill to the floor as soon as 
possible. As I said earlier, this is a completely non-controversial 
boundary adjustment which is supported by Contra Costa County and the 
City of Martinez. Enactment of this legislation allows the Park Service 
to enhance public understanding of John Muir's contributions while also 
facilitating access to an important recreation area in my district.
    Thank you for your time today, I am pleased to answer any 
questions.
                                 ______
                                 
    Mr. Radanovich. With that, we will go ahead and begin with 
our second panel which includes the honorable Lynn Scarlett, 
who is the Assistant Secretary for Policy Management and Budget 
of the Department of Interior; Ms. Gloria Manning, Associate 
Deputy Chief of the National Forest System; and Richard Ring, 
the Associate Director of Park Operations and Education for the 
National Park Service.
    Ladies and gentlemen, welcome to the Committee and go ahead 
and get settled. Normally we have 5-minute presentations from 
each of the witnesses and then we ask the full panel questions 
afterwards. I am going to deviate from that a little bit as 
Lynn Scarlett needs to leave fairly quickly so we will hear her 
testimony and offer a few questions and open it up for 
questions and then go on to the testimony of the remaining 
panel.H.R. 4622
    Mr. Radanovich. So Ms. Scarlett, welcome and good to have 
you before the Committee and please begin your presentation.

 STATEMENT OF P. LYNN SCARLETT, ASSISTANT SECRETARY FOR POLICY 
     MANAGEMENT AND BUDGET, U.S. DEPARTMENT OF THE INTERIOR

    Ms. Scarlett. Thank you. Delighted to be here. Thank you, 
Mr. Chairman and members of the Committee. I am Lynn Scarlett, 
Assistant Secretary of Policy Management and Budget at the 
Department of Interior. I thank you for this opportunity to be 
before you to discuss the department's views on H.R. 4622, the 
Gateway Communities Cooperation Act of 2002. I would like to 
note that the department strongly supports H.R. 4622 and its 
goals of increasing communication, cooperation and coordination 
between Federal land managers and the local communities 
impacted by the decisions of our land managers.
    As you are well aware, the Department's eight bureaus 
manage more than one out of every five acres of land in the 
United States. Lands under our jurisdiction include vast 
multiple use areas and our bureaus host almost half a billion 
visitors a year, creating economic opportunities for 
communities across the country. As with the countless species 
that depend on land to sustain life, many families in these 
communities also depend on this land for community and economic 
well-being.
    Given this, we realize that the resource management 
decisions that we take can greatly impact these local 
communities and the people who live in them. Often these 
impacts are especially felt by the gateway communities that are 
adjacent to our Federal lands. As a result, we realize that 
work in partnership with the people who live on private lands 
bordering our national parks, our national wildlife refuges and 
other Federal lands is extremely important.
    Recognizing this dynamic, the administration has been 
promoting a new era of conservation that will help build 
healthier environments, dynamic economies, and sustainable 
communities. At the center of the Department's plan to 
implement this new environmentalism is what Secretary Norton 
has termed the four Cs, conservation through cooperation, 
communication and consultation. The focus of the four Cs rests 
on the belief that enduring conservation indeed springs from 
partnerships involving people that live on, work on and love 
the land. Our land managing bureaus are implementing this 
collaborative approach, and as I mentioned earlier, they are 
working with gateway communities.
    These communities are often subject to unusual pressures 
and problems including those brought by their popularity as 
entry points to visitors onto Federal lands. As a result, they 
may incur particular costs for additional services, law 
enforcement, for example, search and rescue and many public 
works as well. Mutual benefits flow from cooperating with these 
communities. Gateway communities often take on the additional 
infrastructure and environmental duties that come with the 
visitors headed to nearby Federal lands. This has the effect of 
reducing pressure on Federal resources while stimulating 
gateway economies.
    In my written statement, I gave several examples of how the 
Department has worked cooperatively in the recent past with 
gateway communities. Our goal is to build upon these efforts 
and to buildupon this progress of partnerships. For example, 
the Department is now striving to ensure that all of its 
management and policy decisions are made using a collaborative 
approach with States and local communities. The Department 
believes that H.R. 4622 will positively promote this goal 
across land management agencies by requiring agencies more 
effectively to communicate, coordinate and cooperate with the 
communities affected by their management decisions.
    Given the short time I have, I would like to offer just a 
few thoughts on some additional issues the Committee might want 
to consider addressing in this bill. First, for example, the 
bill's collaborative approach might be strengthened by calling 
on agencies to develop and use incentives when possible to 
encourage staff to more effectively communicate, coordinate and 
cooperate with gateway communities. We also note that the bill 
does not address the status of tribal governments and 
communities on reservation lands as potential gateway 
communities and believe this should be considered for inclusion 
in the bill. The administration also shares your desire to 
increase local government participation as cooperating agencies 
under NEPA. The Council on Environmental Quality, as you know, 
recently issued guidance to facilitate that result. We would 
like to work with you and build language to address our concern 
with the provisions addressing cooperative agency provisions.
    In closing, the Department believes that this legislation, 
if enacted, will result in better land management decisions 
accruing to the benefit of private and public lands and the 
people who live and work on them. The path to the new 
environmentalism moves us away from conflict and toward 
peaceful problem solving and partnership. H.R. 4622 begins to 
move us down that path by requiring better communication, 
coordination and cooperation between Federal land and gateway 
communities and their citizens. Thank you.
    Mr. Radanovich. Thank you very much, Assistant Secretary.
    [The prepared statement of Ms. Scarlett follows:]

    Statement of P. Lynn Scarlett, Assistant Secretary for Policy, 
         Management and Budget, U.S. Department of the Interior

    Mr. Chairman and Members of the Committee, I am Lynn Scarlett, 
Assistant Secretary for Policy, Management and Budget at the U.S. 
Department of the Interior (Department). This is my first occasion to 
testify before you, and I thank you for the opportunity to present the 
Department's views on H.R. 4622, the ``Gateway Communities Cooperation 
Act of 2002.'' The Department strongly supports H.R. 4622 and its goals 
of increasing communication, cooperation, and coordination between 
federal land managers and the local communities impacted by federal 
land management decisions. At this time, the Department would like to 
offer a few suggested enhancements; when the Administration completes 
its review of the bill, we will forward any other amendments that the 
Administration believes necessary to improve the legislation.
    The Department's eight bureaus manage more than one out of every 
five acres of land in the United States, with most of these lands in 
the West. For example, the Department manages 72 percent of Nevada, 
almost 50 percent of Utah, and 62 percent of Alaska. Lands under our 
jurisdiction include vast multiple-use areas, and our bureaus host 
almost half a billion visitors a year, creating economic engines for 
communities across the country. However, population growth and economic 
expansion have increased pressures on our undeveloped land, water 
resources, and wildlife.
    While countless species depend on the land to sustain life, 
families depend on the land for community and economic well-being. 
Given this, we realize that the resource management decisions we make 
can greatly impact local communities and the people who live in them. 
Often these impacts are especially felt by ``gateway'' communities--
including those on Indian Reservations--that are adjacent to our 
federal lands. As a result, we realize that we must work in partnership 
with the people who live on the private lands that border our National 
Parks, National Wildlife Refuges, and other federal lands, and work on 
those lands or have access to resources on those lands.
    Recognizing this dynamic, the Administration has been promoting a 
new era of conservation--a ``new environmentalism''--that will help 
build a healthier environment, dynamic economies, and sustainable 
communities. At the center of the Department's plan to implement this 
new environmentalism are what Secretary Norton has termed the ``Four 
C's''--Communication, Consultation, and Cooperation, all in the service 
of Conservation. The focus of the Four C's is the belief that enduring 
conservation springs from partnerships involving the people who live 
on, work on, and love the land.
    The Department's land managing bureaus are implementing this 
collaborative approach. And, as I mentioned earlier, they are working 
with gateway communities. These communities are often subject to 
unusual pressures and problems, including those brought about by their 
popularity as entry points for visitors onto federal lands. They may 
also incur costs for additional services such as law enforcement, 
search and rescue, and public works.
    Mutual benefits flow from cooperating with these communities. 
Gateway communities often take on the additional infrastructure and 
environmental duties that come with visitors headed to nearby federal 
lands. This has the effect of reducing the pressure on federal 
resources while stimulating gateway economic growth and creating jobs 
in those communities.
    If I may take a moment, I would like to relate several examples of 
how the Department has worked in the recent past with gateway 
communities to jointly address--and solve--a variety of issues. We view 
these as examples of real success and we look to build on this 
progress.
    The town of Sonoita, Arizona, is the gateway to the Bureau of Land 
Management's (BLM) Las Cienega National Conservation Area (NCA). Local 
citizens formed the Sonoita Planning Partnership, which produced a 
proposed land-use plan for the NCA that provides for partnerships 
between public land managers and the Sonoita community. The plan--which 
is the BLM's preferred alternative for NCA management--provides the 
community with the means to articulate and achieve its goals in the 
NCA's management. The plan is a performance-based plan that relies on 
incentives and flexibility to achieve common land-use goals.
    Collaborative efforts between the community of Springdale, Utah, 
and Zion National Park arose out of necessity because of the impact of 
a steadily growing number of park visitors. To address the large 
numbers of tourists, the park and community engaged in a joint planning 
effort to establish a shuttle system between the city and the park, 
with multiple shuttle stations in Springdale. City residents ride the 
shuttle free of charge. The effect of the shuttle has been positive; 
the local economy has gained from more visitor dollars, which have been 
used to finance landscape and other improvements throughout the 
community. This, in turn, has attracted even more tourist business. The 
success of this initiative has led to further collaboration between the 
city and the park, including joint trail design and construction. Park 
staff have even volunteered to paint buildings in the town. More 
recently, the city and park began work on design guidelines to help 
protect the community's small town character.
    Bluff, Utah, is the gateway community to a culturally rich and 
highly popular public recreation area at the confluence of the San Juan 
River and Cottonwood Wash. Faced with increasing numbers of visitors, 
the community formed a local non-profit organization to address the 
unique problems of being a gateway community. The Bluff City Historic 
Preservation Association was formed, which helped create a Bluff 
historic district, preserve an Anasazi Great House and pioneer 
cemetery, as well as establish a conservation easement on 25 acres of 
Calf Canyon to protect Anasazi relics. The Association has also worked 
on a 100-acre community preserve and trail system connecting the town 
to key historic sites and open spaces, as well as BLM lands along the 
San Juan River. The effort has improved the economic well-being of the 
community from conservation activities linked to its gateway status.
    In 1994 Grand County, Utah, signed the Sand Flats Agreement with 
the BLM. Sand Flats is a 7,000-acre BLM recreational area outside Moab, 
Utah. It is highly popular, particularly with mountain bikers. In the 
early 1990s, its popularity increased so much that the BLM was no 
longer able to manage and police the area. Under the 1994 agreement, 
fee collection was turned over to the county, and the receipts were 
made available to the county for use in managing and policing the 
highly popular recreational area. The program has proven very 
successful. The county has been able to control tourism in a way 
compatible with the wishes of its citizens; the BLM now has a signature 
recreation area; and the Sand Flats area is available to users with 
certain safety and enjoyment. The agreement has also resulted in a more 
vigorous tourist trade to benefit the local economy.
    Finally, the town of Dubois, Wyoming, is the gateway to some of 
that State's most scenic and visited high country. The mountains around 
Dubois--all on federal land--are home to the largest bighorn sheep herd 
in the country. With this in mind, the town brought together federal 
and state agencies and economic development and conservation groups to 
create the National Bighorn Sheep Center. The Center operates a museum 
for visitors, provides educational programs for school children, and 
performs bighorn sheep research. The facility, located in downtown 
Dubois, helps attract thousands of visitors each year who, in turn, 
significantly boost the local economy.
    These are just a few examples of the efforts in which the 
Department's bureaus have been engaged with gateway communities. As I 
previously noted, the Department is currently striving to ensure that 
all of its management and policy decisions are made using a 
collaborative approach. The Department believes, however, that H.R. 
4622 will positively promote this goal across land management agencies 
by affirmatively requiring agencies to more effectively communicate, 
coordinate, and cooperate with the communities that are affected by 
their management decisions. The Department also believes that this 
affirmative requirement could be strengthened by calling on the 
agencies to develop and use incentives, when possible, to encourage 
staff to more effectively communicate, coordinate, and cooperate with 
gateway communities. Moreover, the relationships created will stimulate 
the long-term stability needed for investment in these communities.
    As an initial matter, the Department notes that the legislation 
does not address the status of Tribal governments and communities on 
reservation lands as potential gateway communities. Many of these 
communities would similarly benefit from the collaborative approach 
fostered by this legislation.
    The Department believes that H.R. 4622 fosters more effective 
decision-making by requiring agencies to involve officials from 
impacted communities early in the development of federal plans, 
programs, regulations and decisions; by requiring federal agencies to 
provide local officials with plain-English summaries of the 
assumptions, purposes, goals, and objectives of decisions, as well as 
any anticipated impacts on the community; and by providing these 
communities, to the extent practicable, with early public notice of 
proposed decisions that may significantly impact them.
    The bill also makes community input more potent by requiring that 
federal land agencies provide training to gateway community officials 
to ensure that they understand agency planning processes and 
opportunities for participation. Further, the legislation's requirement 
that agencies assist communities in reviewing plans and policies and, 
where practicable, provide technical assistance to help localities 
better develop data and analysis of agency plans will further 
strengthen this collaborative relationship.
    The legislation provides a framework for increased cooperation by 
allowing, where possible, federal land management agencies to enter 
into cooperative agreements with gateway communities to coordinate 
planning and management between agencies and those communities, to 
facilitate cooperative conservation, and to consolidate planning to 
facilitate the participation of local communities in the process. The 
legislation does not, however, address direct gateway community 
involvement in federal land management, such as indicated by the model 
of the Sand Flats Agreement. The success of this agreement is notable 
and its adoption elsewhere could help both small towns and federal land 
managers better serve the general public. The Administration shares 
your desire to increase local government participation as Cooperating 
Agencies under NEPA. The Council on Environmental Quality recently 
issued guidance to facilitate that result. We will work with you on 
bill language to address our concern with the provisions addressing 
Cooperating Agency status.
    Finally, a discretionary grant program will ensure that small 
communities, which may not have the funds to carry out large-scale 
planning or analysis, are given the opportunity to fully and 
constructively participate in the process.
    Looking back, one of the ideas behind the National Environmental 
Policy Act was that informed decision-making would result in the making 
of better decisions. The Department believes that this legislation, if 
enacted, will result in better land management decisions accruing to 
the benefit of private and public lands and the people who live and 
work on them. The path to the new environmentalism moves us away from 
conflict and toward peaceful problem-solving and partnership. H.R. 4622 
begins to move us down that path by requiring better communication, 
coordination, and cooperation between federal land and gateway 
communities and their citizens.
    Mr. Chairman, this concludes my statement. I am happy to answer any 
questions you may have.
                                 ______
                                 
    Mr. Radanovich. I do have a couple questions that I would 
like to ask, if I may. As I mentioned earlier, we will ask 
questions of this witness and then go on to the following 
witnesses, as the Assistant Secretary needs to leave fairly 
soon. So I do have a question, and that is, it has been stated 
that the legislation that we are speaking of here today would 
have a positive effect on local economies. But can you offer an 
opinion about how legislation like this could also possibly 
result in more positive environmental benefits?
    Ms. Scarlett. I think there are many opportunities. One of 
the examples we stated in our written testimony of a 
collaborative and cooperative effort between a gateway 
community and our national parks was in Zion National Parks, 
when that community teamed up with our national park to develop 
a shuttle system going between the park and the community. Of 
course, that means fewer cars, fewer emissions, much less of 
the problems that come attached to that. So that would be one 
example.
    But there are many others that one could imagine in terms 
of resource protection efforts cooperating. I have been 
recently on the Channel Islands opposite California Santa 
Barbara coast, where the Nature Conservancy owns a small piece 
of land, and the parks own the rest and they have an invasive 
species effort they are working jointly on. Many other 
communities around the Nation face similar challenges, and this 
cooperation could facilitate that effort.
    Mr. Radanovich. Do you believe that this bill, H.R. 4622, 
would weaken or strengthen NEPA or NEPA process?
    Ms. Scarlett. I think it could unequivocally enhance the 
NEPA process. NEPA has always been intended as a process to 
encourage participation and engagement of the citizens and the 
communities in which they live. What this does is to really put 
front and center stage in the minds of our public land managers 
the importance of engaging early on those potential publics and 
those potential communities. So I think they work as 
complements in a very positive way.
    Mr. Radanovich. Thank you very much. One last question. Do 
you think that H.R. 4622 in effect might actually help local 
governments and the National Park Service save money and be 
more efficient with the money that it does have to spend?
    Ms. Scarlett. Again, I will point to the Zion National Park 
example as exemplary of what we might expect. In that 
particular example, you could have envisioned the situation in 
which the Park Service proceeded to develop a transportation 
infrastructure completely separate from the gateway community 
in which or with which it worked. Ultimately by working 
together, they were able instead of duplicating to complement 
and provide a single service. So you can envision all manner of 
similar kinds of endeavors that would avoid duplication, 
enhance efficiency and therefore improve the overall community, 
public land and the gateway communities infrastructure.
    Mr. Radanovich. Thank you very much, Ms. Scarlett. And I 
would like to recognize the gentlelady from the Virgin Islands, 
Mrs. Christensen.
    Mrs. Christensen. Thank you, Mr. Chairman, and I apologize 
for getting here late and I did miss some of your testimony. 
But let me ask, as you know, I represent at least one of my 
islands that has a large park presence. And while we may get 
some complaints, it is usually because they disagree with the 
decisions not necessarily because they have had the opportunity 
to provide input. But are you aware of any circumstances where 
local communities have been denied access or the opportunity to 
communicate with Federal land management--because it seems to 
me that they are usually are there and there are usually 
several hearings, as a matter of fact. And are there instances 
where the access to the Federal land managers and their ability 
to communicate has been denied?
    Ms. Scarlett. Let me give two responses to that. On the one 
hand, you are absolutely right to point out there have been 
many opportunities and many instances of cooperation, and we 
celebrate and applaud those instances, and I gave the example 
of Zion National Park as one example. There are others. But by 
the same token, we have had experiences or situations where the 
public land managers have not necessarily gone that extra mile, 
not simply to provide some opportunity kind of late in some 
decisionmaking stage to comment on decisions being made but 
rather right up front, being involved in thinking through what 
opportunities might be.
    I gave the Zion National Park instance where the gateway 
community worked with Zion National Park right up front to 
think about how they could join their transportation 
infrastructure and work together. That occurred because of the 
particular motivation of the park superintendent at the time, 
an individual I have had an opportunity to meet. It was really 
his initiative and his inspiration. But we do not find that 
same kind of vigor necessarily occurring all across our public 
lands. And this bill, we believe, would put this on all our 
public land managers' radar screens so they would think right 
from the beginning let us cooperate, not simply provide a kind 
of reactive forum for comment, but a proactive engagement and 
cooperation and upfront communication and see if we can't 
cooperatively solve problems.
    Mrs. Christensen. I had another question as to the 
interpretation of the phrase meaning for public involvement, 
but is that what you mean? And isn't that already implicitly 
included in the NEPA--in NEPA?
    Ms. Scarlett. I think of course, participation can go along 
a continuum from comment to more upfront generation of ideas. 
And I think what this bill would do and what we have seen, but 
only seen in its inception, is for our public land managers to 
reach out right at the early stages of any challenge or any 
problem and to identify, perhaps, common issues and new ideas 
and initiatives that might really address problems that might 
not have been identified just in the park manager or the 
wildlife refuge management tool kit.
    So yes, you are right. We have to have a lot of public 
processes that allow commentary. I think the idea here is to go 
beyond commentary to tap those creative ideas right at the 
beginning and get better results as a consequence.
    Mrs. Christensen. Based on the experience and the issues 
that my community deals with, I don't disagree that there is a 
need for that kind of proactive involvement in the community 
from the park, but it just seems to me that it is mainly an 
administrative function. However, Mr. Chairman, I would be 
happy to work with you on your bill--well, we would be happy to 
work with you on your bill and see how it comes out. I have 
mixed feelings about the bill because there is the opportunity 
for meaningful public involvement already. I agree, though, 
that it isn't uniformly applied throughout the park system.
    And with that, I will just withhold any further questions.
    Mr. Radanovich. Thank you very much, Mrs. Christensen. Are 
there any other questions of the witness?
    Mr. Duncan?
    Mr. Duncan. I don't have any questions. I would just say 
that I am pleased to hear Secretary Scarlett say that they are 
attempting to move away from conflict in this new 
environmentalism, I think you said, and trying to develop much 
more collaboration with the local and State agencies. I might 
just say, you know, in the past there has been a problem 
because in some of these things--maybe not most, but some in 
the Park Service and some in the Forest Service and some in the 
BLM have moved in and they have people who come in and they are 
brand new to an area and just because they have a Ph.D. Or 
Master's degree, maybe they don't realize it, but they seem to 
have an attitude of looking down on some of the local people 
who have lived there all their lives.
    And then they say well, we got public involvement and the 
public they talked to the most are the other people who have 
just moved in in the last 2 or 3 years. And there is a big 
difference at the way people look at land when they have lived 
their all their lives as opposed to people who have just moved 
in or just been there for a year or 2.
    And I hope that in some of your training programs that you 
will attempt to point that out, because this is not supposed to 
be a government of, by and for the bureaucrats. It is still 
supposed to be a government of, by and for the people. 
Everybody who works for the Park Service, Forest Service or BLM 
are supposed to be working for people who they might not like 
and might look down on but they are still supposed--local 
people are supposed to be their bosses and not the other way 
around. Thank you very much.
    Mr. Radanovich. Thank you Mr. Duncan. And I would like to 
interject. I spent most of my life living next to Yosemite 
National Park in Mariposa, California and probably have gone 
through at least 10 superintendents in Yosemite National Park. 
And it has been very interesting to--each superintendent comes 
with their own personality mix and their own idea about their 
role as a national park director, and in some cases some 
believe that the--that everything stopped at the border of the 
national park and didn't go beyond its borders. And we have 
enjoyed good relationships, I think, with the past few 
superintendents at Yosemite because they are making that effort 
to reach out but they are not required to.
    And you are not under any control of the superintendent 
that does go into the area. I think under existing law they can 
or they don't have to if they don't want to. And that is why we 
felt the need because we see the obvious benefits of a good 
working relationship, both for the park and for the outlying 
communities.
    One other thing I did want to go into the record while we 
are here is the testimony of Congressman Chris Hansen on H.R.--
Chris Cannon on H.R. 3786, and it is his personal testimony. I 
would like to submit his testimony for the record and if there 
is no objection, so ordered. And on this one, I would like to 
read in for the record, a memo from July, 1999, from George 
Frampton, the then acting Chair of the Council on Environmental 
Quality, a memo from him to the heads of Federal agencies, 
wherein he stated that the purpose of this memorandum is to 
urge agencies to more actively solicit in the future the 
participation of State, tribal and local governments as 
cooperating agencies in implementing the environmental impact 
statement process under the national poll--Environmental Policy 
Act as soon as practicable, but no later than the scoping 
process. Federal agency officials should identify State, tribal 
and local agencies which have jurisdiction by law or special 
expertise with respect to reasonable alternatives or 
significant environmental, social or economic impacts 
associated with a proposed action that requires the preparation 
of an environmental impact statement.
    So, with that, Secretary Scarlett, I want to thank you for 
being here with us and do appreciate your testimony.
    Mrs. Christensen. I just wanted to say, this is your first 
time before the Subcommittee?
    Ms. Scarlett. That's correct.
    Mrs. Christensen. I am remiss in not welcoming you to the 
Subcommittee. Thanks for being here and thanks for your 
testimony.
    Mr. Radanovich. Thank you very much, Madam Secretary and 
with that, you are excused and thank you for being patient, the 
other members of the panel.
    Next to speak is Ms. Gloria Manning, the associate deputy 
chief of the National Forest System. Gloria, welcome back to 
the Committee. It is good to see you again. And you may begin 
your testimony and we will go on with the testimony of Mr. Ring 
and then we will open the panel for questions.

 STATEMENT OF GLORIA MANNING, ASSOCIATE DEPUTY CHIEF, NATIONAL 
                         FOREST SYSTEM

    Ms. Manning. Mr. Chairman and members of the Subcommittee, 
thank you for the opportunity to appear before you today. I am 
Gloria Manning, associate deputy chief of National Forest 
System, USDA Forest Service. I am here to provide the 
Department's views on H.R. 4622, the Gateway Communities 
Cooperation Act. The Department supports this bill. Enactment 
of H.R. 4622 would require Federal land managers to take 
specific action regarding designated gateway communities for 
the purpose of improving the ability of these communities to 
participate in Federal land management planning conducted by 
the Forest Service and agencies of the Department of Interior.
    In addition, we would have to respond to the impacts which 
our management imposes. Specifically, H.R. 4622 includes 
improving agency relationships with the communities, enhancing 
facilities and services that are compatible with management of 
the lands and result in better local land use planning and 
decisions by Federal managers. The importance in recognizing 
and responding to the needs of communities to the gateways of 
national forests is unquestionable.
    This principle forms the very core of Secretary Veneman's 
and Chief Bosworth's desire to establish cooperative 
relationships at local levels for all Forest Service 
decisionmaking processes. We believe that the required action 
and responses and desired outcomes indicated in H.R. 4622 are 
compatible with the current Forest Service support to land 
management planning under existing statutes.
    Mr. Chairman, allow me to briefly describe our ongoing work 
with local communities relevant to land management planning. 
The Forest Service considers gateway communities as vital 
partners in delivering services to forest visitors and helping 
us accomplish our agency mission. District rangers are 
generally our first point of contact for community queries and 
involvement. Across the entire National Forest System, we work 
closely with local communities, including those that would be 
designated under H.R. 4622 as gateway to coordinate with them 
on our management actions and involve them in our 
decisionmaking to the maximum extent feasible.
    We are extremely committed to and interested in building 
and maintaining strong mutually beneficial relationships with 
these communities. Many of our national forest units have 
actively involved local community people in training 
opportunities both as providers to the agency of local 
expertise and insight and as learners to better understand 
agency planning processes and the venues through which they can 
help.
    Under the current statutes, forest service involvement with 
communities extends well beyond land management planning to 
very innovative projects and partnership that support and 
benefit local community services and activities which 
contribute to multiple use outcomes under land and resource 
management plan. A key benefit of this extended involvement is 
the building of a solid foundation of relationship and trust 
that is absolutely essential for successfully working together 
on the specific issues and processes of land management 
planning. The agency has staff members from national 
headquarters to forest level units working on behalf of 
community involvement interests, including those that would be 
designated as gateway communities.
    We have several examples of successfully working with local 
communities. We have been working on the Dixie National Forest 
with 75 rural communities in four Utah counties. We have been 
working on the Lincoln in New Mexico, the San Juan in Colorado, 
especially one of the things we are most proud of is the San 
Juan Skyway, all American road which was a cooperative 
endeavor. We acknowledge and agree with the planning Congress 
stated in H.R. 4622, the communities adjacent to our Federal 
lands affected by our management action and public use of the 
land that the communities contribute to our mission through 
provision of services and products to both our employees and 
those who visit our lands.
    The gateway communities serve as point of entry and source 
of service and information for Federal land visitors and that 
our coordination and communication with communities is 
essential to prevent unintended consequences of agency's 
decisions. We feel we have several authorities that allow us to 
do this, including as was mentioned earlier, the National 
Environmental Protection Act, the National Forest Management 
Act, the Economic Diversification Act of 1960, Public Law 
105277 section 322, better known by most of you as the Wyden 
amendment.
    We have partnership authorities, Intergovernmental 
Cooperation Act of 1968 that authorized Forest Service to 
provide services to States or subdivisions of States. Those are 
the key authorities in which the Forest Service involves and 
assists local communities carrying out its land management 
project and coordination activities.
    In general, we believe these authorities support a broad 
range of community involvement and technical assistance to 
gateway communities. We do, however, recognize the need for 
improved interagency planning policy for gateway communities 
within similar regional geographic and customer marketed areas 
that contain multiple Federal land management activities.
    Therefore, we think this bill is important. Mr. Chairman, 
we want to continue working with you and the Committee to 
explore possible improvements, especially to the interagency 
policies for joint land management planning and assistance to 
affected local communities.
    Thank you, Mr. Chairman, for providing me this opportunity 
to testify on H.R. 4622 and the Department supports this bill. 
Thank you.
    Mr. Radanovich. Thank you very much, Ms. Manning. I 
appreciate your testimony.
    [The prepared statement of Ms. Manning follows:]

 Statement of Gloria Manning, Associate Deputy Chief, National Forest 
         System, Forest Service, U.S. Department of Agriculture

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today. I am Gloria Manning, Associate 
Deputy Chief for the National Forest System, USDA Forest Service. I am 
here today to provide the Department's views on H.R. 4622 Gateway 
Communities Cooperation Act.
    Enactment of H.R. 4622 would require Federal land managers to take 
specific actions regarding designated ``gateway communities'' for the 
purpose of improving the ability of these communities to participate in 
Federal land management planning conducted by the Forest Service and 
agencies of the Department of Interior. It would further require our 
response to the impacts, which the management of our lands imposes. 
Specifically, the requirements of H.R.4622 are to improve agency 
relationships with the communities; enhance facilities and services, 
when compatible with management of the lands; and result in better 
local land use planning and decisions by Federal land managers.
    The importance in recognizing and responding to the needs of 
communities at the gateways to National Forests is unquestionable. This 
principle forms the very core of Secretary Veneman's and Chief 
Bosworth's desires to establish cooperative relationships at local 
levels for all Forest Service decision-making processes. We believe 
that the required actions, responses, and desired outcomes indicated in 
H.R. 4622 are compatible with the current Forest Service approach to 
land management planning under existing statutes.
    Mr. Chairman, allow me to briefly describe our ongoing work with 
local communities relevant to land management planning. The Forest 
Service considers gateway communities as vital partners in delivering 
services to forest visitors and helping us accomplish our agency 
mission. District Rangers are generally our first point of contact for 
community queries and involvement. Across the entire National Forest 
System we work closely with local communities, including those that 
would be designated under H.R.4622 as ``gateway'' to coordinate with 
them on our management actions and involve them in our decision 
processes to the maximum extent feasible. We are extremely committed to 
and interested in building and maintaining strong, mutually beneficial 
relationships with these communities. Many of our national forest units 
have actively involved local community people in training 
opportunities--both as providers to the agency of local expertise and 
insight and as learners to better understand agency planning processes 
and the venues through which they can help.
    Under current statutes, Forest Service involvement with communities 
extends well beyond land management planning to very innovative 
projects and partnerships that support and benefit local community 
services and activities which contribute to multiple-use outcomes under 
land and resource management plans. A key benefit of this extended 
involvement is the building of a solid foundation of relationship and 
trust that is absolutely essential for successfully working together on 
the specific issues and processes of land management planning. The 
agency has staff members from national headquarters to forest-level 
units working on behalf of community involvement interests, including 
those that would be designated as ``gateway communities.'' The examples 
are many, but I will mention five here.
    Examples include the Dixie NF working with 75 rural communities in 
four Utah counties; the Lincoln NF working with multiple communities 
and reservations in New Mexico; the Green Mountain National Forest's 
innovative work with communities now bridging into their involvement 
with the Forest Plan Revision; the Huron-Manistee National Forests 
working with the Oscoda, Michigan school district and community on a 
fuel reduction project; and the Gifford Pinchot NF working with 
Washington state, the National Park Service, and surrounding 
communities in the Mount Rainer area. The latter example reflects our 
increasing commitment to interagency partnerships involving local 
community participation.
    We acknowledge and agree with the findings of Congress stated in 
H.R. 4622 that communities adjacent to our Federal lands are affected 
by our management actions and public use of the lands; that the 
communities contribute to our mission through provision of services and 
products to both our employees and to those who visit our lands; that 
gateway communities serve as point of entry and source of services and 
information for Federal land visitors; and that our coordination and 
communication with communities is essential to help prevent unintended 
consequences of agency decisions.
    Mr. Chairman, I will now briefly discuss the current authorities 
under which we do land management planning which require and enable us 
to involve local governments across multiple phases of the planning 
process, beginning in the earliest stages of discussion. Further, the 
agency has authority to form partnerships with local governments and 
community leaders, and to provide assistance to rural communities that 
can serve to benefit their involvement in our planning processes. This 
broad scope of opportunity for community involvement is a priority in 
the FS. It serves as a centerpiece in our efforts to accomplish on the 
ground results and exceptional service to the public. Specifically, 
these key authorities are:
    The National Forest Management Act (NFMA). Section 6 (d) of this 
Act requires the Secretary to provide for public participation in the 
development, review, and revision of land management plans and 
specifies required elements of that participation. The Act further 
states how the public is to be involved over the life of the plan. The 
specific requirements and procedures for complying with NFMA are 
contained in the agency planning regulations at 36 CFR 219. The public 
participation requirements apply to all types of communities, 
regardless of special designations such as ``gateway.'' Section 6, 
paragraphs (a) through (f) of the 1982 regulation specify and enable 
participation that both informs and engages individuals in process 
activities. Those regulations as revised in 2000 enabled broader 
opportunities for communities to be involved through emphasis on 
collaboration. Currently, the agency is working on a revision of the 
2000 rule (to be published soon as a proposed rule) and it too, will 
provide for a broad scope of involvement by local communities. It will 
also require our close coordination with other land management agencies 
in our mutual planning processes, a factor that will benefit the 
ability of communities to better understand and participate in overall 
Federal land management activity.
    The National Environmental Policy Act (NEPA). The public 
involvement provisions of NEPA are stated in 40 CFR 1506.6 (a) through 
(f). This regulation requires, in part, making diligent efforts to 
involve the public including local governments in preparing and 
implementing NEPA procedures (as is required for land management 
plans), and providing public notice of hearings, meetings, and 
documents for keeping interested people informed. Forest units exercise 
considerable innovation in applying these requirements to community 
diversity and expertise for involvement throughout the stages of 
planning.
    The Forest Service fully complies with letter and intent of the 
Council on Environmental Quality (CEQ) direction regarding cooperating 
Agency status for communities and local governments. Local governments 
with special expertise or jurisdiction by law are invited to be a 
cooperator in the preparation of environmental assessments (EA) or 
environmental impact statements (EIS). Cooperating agencies participate 
in the analysis and environmental document preparation process.
    The Federal Advisory Committee Act (FACA). While this involvement 
under NFMA and NEPA by community members, including local officials, in 
discussions about pending decisions and their anticipated effects is 
subject to provisions of the FACA, the Act does not preclude such 
involvement nor does it necessarily require that involvement be 
formalized and structured under FACA.
    The Economic Diversification Act of 1990. The Forest Service also 
has authority under this Act to work with dependent rural communities. 
This in turn has often been a vehicle for interested communities to get 
involved in land management planning activity. Specifically, this 
authority is in Section 2371, Subtitle G, Chapter 2, Section 2373, P.L. 
101-624, 7 U.S.C. 5511, as amended. The program objectives are to 
provide accelerated assistance to rural communities located in or near 
a national forest and are economically dependent upon forest resources. 
Aid is extended to help them develop strategic plans that can diversify 
their economic base and improve overall community well being. In fact, 
under the grant opportunities afforded by this Act, Fiscal Year 2001 
results show that over 950 communities are operating under strategic 
Local Action Plans aimed at helping build local capacity, strengthen 
relationships, and diversify local economies. This includes work on 
non-timber forest products, heritage tourism, eco-tourism, value-added 
wood products, bio-energy, ecosystem restoration, and more. Program 
direction and guidance under this Act is through our State and Private 
Forestry (S&PF) mission area, specifically the Rural Community 
Assistance (RCA) program.
    Section 322 of Public Law 105-277. This act, better known as the 
Wyden Amendment, is an authority widely used by the Forest Service, 
particularly in the West, to provide technical assistance to local 
communities. For example, the Siuslaw NF, using this amendment for land 
stewardship, developed an agreement with the Confederated Tribes of the 
Grand Ronde Reservation. The purpose was to develop a land management 
plan alternative for 20,000 acres of NFS lands that are adjacent to 
their existing Indian reservation. Although this was a tribal 
application of the amendment, it has also been creatively applied to a 
variety of community types.
    Partnership authorities. A current priority in the Forest Service, 
for which we now have authorities, is to form partnerships with local 
governments and community leaders. This capability, which we are 
working to expand, serves as a centerpiece in our efforts to accomplish 
on the ground results and exceptional service to the public. We work on 
mutually beneficial projects under the Challenge Cost-Share Authority, 
develop educational partnerships under the Co-operative Funds Act. We 
have the Intergovernmental Cooperation Act of 1968 that authorizes the 
Forest Service to provide services to states or subdivision of states.
    These are the key authorities under which the USDA, Forest Service 
involves and assists local communities carrying out its land management 
planning and project coordination activities. In general, we believe 
these authorities support a broad range of community involvement and 
technical assistance to gateway communities. We do however recognize a 
need for improved interagency planning policy for gateway communities 
within similar regional geographic and customer market areas that 
contain multiple federal land management agencies. In particular, the 
western part of the country has several major common regional tourism 
destinations where National Parks, National Forests and other agencies 
all combine to serve the same customers and impact a similar group of 
communities. This issue is also manifested for watershed restoration, 
fire regime and wildlife habitat range management coordination.
    Mr. Chairman, we want to continue working with you and the 
committee to explore possible improvements to these interagency 
policies for joint land management planning and assistance to affected 
local communities. Thank you, Mr. Chairman, for providing me this 
opportunity to testify on H.R. 4622. I would be pleased to answer any 
questions you may have.
                                 ______
                                 
    Mr. Radanovich. Next is Mr. Richard Ring, associate 
director of the Park Operations and Education of the National 
Park Service. Mr. Ring welcome. And you may begin your 
testimony and thank you for coming to the Committee. I 
appreciate it. H.R. 3786

     STATEMENT OF RICHARD RING, ASSOCIATE DIRECTOR OF PARK 
        OPERATIONS AND EDUCATION, NATIONAL PARK SERVICE

    Mr. Ring. Mr. Chairman, thank you for having me here today. 
I would like to take the opportunity to present the Department 
of Interior's views on two bills today, the first is H.R. 3786. 
This bill would revise the boundary, authorize a land exchange 
and revise the acreage of the Glen Canyon National Recreational 
Area in the States of Utah and Arizona. The Department supports 
this bill.
    A local developer, Mr. Brent Coleman helped initiate the 
proposal for the exchange. And although the Service has not yet 
appraised the parcels involved, the developer's appraisal 
indicates the Service will receive lands with a higher value 
than those the Service would exchange, which would remove the 
need for any additional land acquisition funds in pursuing this 
exchange. The bill would give the Secretary of Interior 
authority to exchange the land, to change the current boundary 
by adding 152 acres that is currently outside the boundary of 
the park, and deleting 370 acres that is currently inside the 
park in the area of Kane County, Utah. I believe you have a map 
that was provided that shows you the parcel as well as the 
location on the boundary of the park.
    The bill would also revise the total acreage authorized for 
the park from 1,236,880 acres to 1,256,000 acres. This change 
would correct the total acreage within the boundary that was 
incorrectly identified in the parks enabling legislation. 
Correction of the authorized acreage ceiling would not add, by 
the way, nor would this exchange add any new facilities, 
increase operating costs, or require any additional staffing. 
The 152 acres that the Service would acquire as a part of this 
exchange are located east of Highway 89, approximately 5 miles 
south of Big Water, Utah, and contiguous to the existing park 
boundary.
    The 370 acres that the Service would exchange are located 
west of Highway 89 and are adjacent to privately owned lands. 
Although within the boundary of the recreation area, the 370 
acres the Service would exchange are physically and visually 
isolated from the rest of the recreation area by topographic 
features.
    The owner of the private land has had an appraisal 
completed on the lands that are proposed for exchange. And if 
the legislation is enacted, the Service would conduct its own 
appraisal of the two parcels as part of an environmental 
analysis on the exchange.
    The owner's appraisal determined that the 152-acre parcel 
which appraised for approximately $5,500 per acre, and which 
the Service would receive, was worth approximately seven times 
more per acre than the 370-acre parcel that the Service would 
give up, which appraised for approximately $750 per acre.
    H.R. 3786 would also correct the acreage ceiling error 
stated in Public Law 92-593, the 1972 enabling legislation for 
Glen Canyon National Recreation Area. That law incorrectly 
estimated the National Recreation's acreage within the 
boundary.
    Using the same boundary identified on the map referenced in 
1972, the application of modern map reading and geographic 
information system technologies have determined that an acreage 
of 1,256,000 acres more accurately reflects the amount of land 
within the 1972 boundary. This bill and the exchange that it 
would authorize would provide an opportunity also for private 
development at one of the main access points to lands held 
within the Utah school and institutional trust lands 
administration could enhance approximately 40,000 acres held by 
SITLA. We understand the exchange is also supported by the 
State of Utah and Kane County as well. We recommend two minor 
technical amendments to the bill, and that concludes my remarks 
on H.R. 3786. H.R. 3942
    Mr. Ring. I would like to move now to H.R. 3942, which is a 
bill to adjust the boundaries of John Muir National Historic 
Site in Martinez, California. And Mr. Miller ran down the 
particulars of this bill and its situation as well as I could. 
We support this bill. It would allow for us to acquire, give us 
authority to modify the boundary by a minor amount, 
approximately two-tenths of an acre, and allow us to acquire 
the property, because after an exhaustive search, we have not 
been able to find the owners and we would continue to do this--
attempt to find them, but if we could not, we would acquire it 
by clearing title by an eminent domain proceeding.
    The general management plan for the park calls for this 
area to be developed for parking for visitors to the site and 
without this parcel, we would have a tremendous amount of 
difficulty developing the adjacent area for that purpose. This 
concludes my remarks on both bills and would be happy to take 
any questions.
    Mr. Radanovich. Again, thank you very much, Mr. Ring.
    [The prepared statement of Mr. Ring on H.R. 3786 follows:]

 Statement of Richard G. Ring, Associate Director, Park Operations and 
 Education, National Park Service, U.S. Department of the Interior, on 
                               H.R. 3786

    Mr. Chairman, thank you for the opportunity to present the 
Department of the Interior's views on H.R. 3786. This bill would revise 
the boundary of the Glen Canyon National Recreation Area in the States 
of Utah and Arizona.
    The Department supports H.R. 3786. The revision of the boundary 
would not contribute to the National Park Service (``Service'') 
maintenance backlog because the exchange would not result in any 
additional facilities, increased operating costs, or additional 
staffing. The current owner of the private property to be exchanged 
initiated this proposal and although the Service has not yet appraised 
the parcels involved, the owner's appraisal indicates that the Service 
will receive lands with a higher value than those the Service would 
exchange, which should remove the need for any land acquisition funds.
    H.R. 3786 would amend Public Law 92-593 and give the Secretary of 
the Interior the authority, through an exchange, to change the boundary 
of Glen Canyon National Recreation Area (``Park'') by adding 152 acres 
and deleting 370 acres in Kane County, Utah. The bill would also revise 
the authorized acreage of the park from 1,236,880 acres to 1,256,000 
acres. This change would correct the total acreage within the park 
boundary that was incorrectly identified in the park's enabling 
legislation. Correction of the authorized acreage ceiling also would 
not add any new facilities, increase operating costs, or require 
additional staffing.
    The 152 acres that the Service would acquire are located east of 
Highway 89, approximately 5 miles south of Big Water, Utah and are 
contiguous to the existing park boundary. The 370 acres that the 
Service would exchange are located west of Highway 89 and are adjacent 
to privately owned lands. Although within the boundary of the 
recreation area, the 370 acres are physically and visually isolated 
from the rest of the recreation area by topographic features.
    The owner of the private land has had an appraisal completed on the 
lands that are proposed for exchange. If this legislation is enacted, 
the Service would conduct its own appraisal on the two parcels. 
However, the owner's appraisal determined that the 152-acre parcel 
($5,500 per acre for a total appraised value of $836,000), which the 
Service would receive, was worth approximately seven times more per 
acre than the 370-acre parcel ($750 per acre for a total appraised 
value of $277,500) the Service would exchange.
    H.R. 3786 would also correct the acreage ceiling error stated in 
Public Law 92-593, the 1972 enabling legislation for Glen Canyon 
National Recreation Area. Public Law 92-593 incorrectly estimated Glen 
Canyon National Recreation Area's acreage within the boundary to be 
1,236,880 acres. Using the same boundary identified on the map 
referenced in the 1972 enabling legislation, application of modern map 
reading and geographic information system technologies have determined 
that an acreage of 1,256,000 acres more accurately reflects the amount 
of land within the 1972 boundary.
    H.R. 3786 enjoys a broad cross section of support. The nearest 
communities to the lands proposed for exchange, Big Water, Utah and 
Page, Arizona, recognize the importance of protecting the National 
Recreation Area. Also, this exchange would provide an opportunity for 
private development at one of the main access points to lands held by 
the Utah School and Institutional Trust Lands Administration (SITLA). 
Such private development could enhance the 40,000 acres held by SITLA 
and is supported by the State of Utah and Kane County, Utah.
    We recommend two amendments to the bill. On page 2, line 10, strike 
``November 11,'' and insert ``November 30,''. On page 2, line 12, 
insert the following after the last period, ``Upon conclusion of the 
exchange, the boundary of the recreation area shall be revised to 
reflect the exchange. At the time of the exchange, the Secretary shall 
place deed restrictions on the area identified on the map as ``No 
Development Restricted Area'' in order to preserve the resources of the 
recreation area.''.
    Mr. Chairman, this concludes my prepared remarks. I would be 
pleased to answer any questions you or other members of the 
subcommittee may have.
                                 ______
                                 
    [The prepared statement of Mr. Ring on H.R. 3942 follows:]

 Statement of Richard G. Ring, Associate Director, Park Operations and 
 Education, National Park Service, U.S. Department of the Interior, on 
                               H.R. 3942

    Mr. Chairman, thank you for the opportunity to present the 
Department of Interior's views on H.R. 3942, a bill to adjust the 
boundaries of the John Muir National Historic Site in Martinez, 
California.
    The Department supports H.R. 3942. It will enable us to fulfill one 
of the General Management Plan objectives for the park by providing a 
parking area to serve visitors to the Muir House and those who wish to 
hike Mt. Wanda. Because of the steep terrain in the area, no other 
suitable location for a parking lot exists inside current park 
boundaries. The City of Martinez supports our efforts to acquire the 
small parcel for this parking lot.
    The proposed land to be acquired in this boundary adjustment has a 
strange history. The parcel is only 9,500 square feet--about 0.2 acre. 
To acquire a parcel of this size, the National Park Service generally 
would negotiate the purchase of the land with the current owners using 
our minor boundary adjustment authority. However, because the National 
Park Service has been unable to identify the current owners of this 
plot, legislation is necessary to proceed at this time.
    The National Park Service has managed the Muir home, adobe, and 
orchards in Martinez for almost 40 years. The original holdings of John 
Muir, however, were much larger and included Mt. Wanda, named for his 
daughter with whom he would take walks to the top. Today, state highway 
4 and Franklin Canyon Road run between Mt. Wanda and the home. The 
National Park Service completed a survey of Mt. Wanda in the 1990s in 
connection with its acquisition under previous boundary legislation. 
This survey discovered the tiny 0.2 acre plot located between Franklin 
Canyon Road and Mt. Wanda.
    The 0.2 acre plot was proposed in the 1991 General Management Plan 
to be developed as a parking area for users of the trails on Mt. Wanda 
and also to serve as a bus parking and overflow lot for the visitor 
center and historic Muir home. At the time, it was assumed that the 
plot was included in the lands that had been transferred to the park 
and would be available for the proposed parking area.
    The National Park Service has been unable to locate the current or 
previous owner or heirs. We do know that the 0.2 acre plot is 
completely surrounded by publicly owned land. The National Park Service 
owns the land on the west, south and east sides and the City of 
Martinez owns the right-of-way for Franklin Canyon Road on the north 
side. Directly across the road on the north side is the right-of-way 
for state highway 4.
    We understand that in the 1960's the California Department of 
Public Works (now known as CalTrans) acquired the right-of-way for 
state highway 4, including a large parcel that was mostly acquired in 
fee from the estate of Mary Pereira. The far southeast corner of that 
parcel, comprising the 0.2 acre plot was not acquired in fee, but as a 
temporary construction easement. The construction easement expired on 
December 31, 1967. Neither the owner nor the Contra Costa County 
Assessor apparently was aware that this parcel had never been acquired. 
No parcel number has been assigned to it and no property taxes have 
ever been assessed or paid on it.
    The park superintendent has called all the Pereiras listed in the 
various Bay Area phone books and has spoken with the heirs of Mary 
Pereira. We also have advertised for the owner. Since no owners can be 
located, the National Park Service cannot negotiate the purchase of 
land under its minor boundary adjustment authority.
    This legislation would adjust the park boundary line northward, 
approximately 80 feet to the south edge of the Franklin Canyon Road 
right-of-way. The National Park Service would be authorized to purchase 
the land if an heir to the former owner could be found, or the land 
condemned if an owner or heir cannot be located.
    The Department is committed to the President's Initiative to 
eliminate the National Park Service's deferred maintenance backlog. 
However, this acquisition and the subsequent construction of the 
parking lot are part of the park's plan to address health and safety 
issues and are, therefore, consistent with the President's Initiative.
    That concludes my testimony. I would be happy to answer any 
questions that you or the members of the subcommittee may have.
                                 ______
                                 
    Mr. Radanovich. I point out the need for parking as much as 
I support this site for--the John Muir Historic Site and the 
acquisition for more parking. I would ask for support for more 
parking spaces in Yosemite valley. Making sure everybody has a 
parking space here. Thank you very much for being here. I will 
ask a couple of questions. Ms. Manning, what positive effects 
can you see from better coordination and communications from 
Federal agencies through H.R. 4622?
    Ms. Manning. Well, the thing that I think it does, it also 
allows the communities to know that we are required to 
coordinate with them. An example would be about a year ago, 
Coldwell County in North Carolina didn't know anything about 
our planning, and they called themselves a gateway community to 
the mountains. And I just happened to have been visiting with 
some county commissioners who heard about it and said, you mean 
all of this time we have been missing out on the opportunities 
to become a model community within a forest because we didn't 
know you had all these programs.
    So while we know and because I have been around awhile and 
some of the forest people have been around for awhile, we know 
what our obligations are. This bill to me lets the communities 
know that we are required to do this and they can knock on our 
door and we just--my frame of reference a big happy family, 
because I think it does wonders for that.
    Mr. Radanovich. Thank you very much. I know we are bouncing 
here around a bit, but Mr. Ring, on H.R. 3786, does the 
revision in the authorized boundary acreage reflect the current 
acreage included in the land exchange or is the 1,256,000 
number allowing room for the additional land acquisition?
    Mr. Ring. I believe it is a figure that includes the 
authorized exchange, but I will check that and provide that for 
the record.
    Mr. Radanovich. And Mr. Ring, in reference to H.R. 3942, 
the John Muir Historic Site, since it remains unclear as to who 
owns the land in question, do you believe the bill should be 
amended to make it clear that no other title or claim may be 
made against the parcel upon enactment of this Act?
    Mr. Ring. I believe we feel the need to clear the title and 
we certainly are supportive of making sure that just 
compensation for the parcel gets to whoever the legal owner is, 
and we simply feel that we need to have the adjustment so that 
we can proceed and allow the courts ultimately to dispose of 
any funds that represent the value of that property.
    Mr. Radanovich. OK, great. Thank you very much. Any 
questions from any other members?
    Mrs. Christensen. I have a couple of questions. Associate 
Deputy Manning, you cited an example of where one community 
didn't know what was available to them, but couldn't that be 
overcome with our legislation by USDA and Department of 
Interior, just increasing their outreach and information 
campaign without legislation?
    Ms. Manning. Well, it could in one sense, but then budgets 
and personnel sometimes prevent us from doing that. And 
communities sometimes feel the need to know that they have the 
authority to make--sometimes we need a little push and they--if 
they know that this bill is out there, gives them that little 
push to make us and hold us accountable for what we are 
supposed to do.
    Mrs. Christensen. You have the authority to do it already 
and you could do it.
    Ms. Manning. We could, yes, but this bill adds--sort of 
makes us coordinate with our sister agencies and do it 
together.
    Mrs. Christensen. I understand your answer, but I still 
think that that authority and the ability to do that is already 
available to you. And your testimony like that of the Assistant 
Secretary cited many examples of great cooperation, great 
outreach, great local participation, for example, where you 
cite on page 2. And then you talk about some of the current 
authorities and you cite the National Forest Management Act and 
section 6(d), which requires the Secretary to provide for 
public participation in the development, review and revision of 
land management plans and specifies the required elements of 
that participation.
    Can you explain how adding meaningful--I forget the 
language, the statement about meaningful participation would 
enhance the authority that you already have?
    Ms. Manning. I used to be a planner and I started with the 
Agency doing that, and our interpretation of that was simply 
notification that we are about to begin in asking local 
communities, Governors to just designate somebody, and if they 
didn't answer us, we had fulfilled our obligation. And what we 
are talking about, I think now, is kind of--it is a two-sided 
thing. The communities' feeling that we are really there at the 
table together and we are planning for the land together. We 
take into consideration what they want to achieve versus what 
our needs are and we do it together. And I think that is what 
we are talking about when we talk about meaningful public 
involvement.
    Mrs. Christensen. OK, I am not going to pursue the line of 
questioning anymore, but I really think that putting 
meaningful--a word like ``meaningful'' needs to be defined and 
it seems to me that the definition under that one particular 
act is very specific, and I can't see how you can get more 
meaningful than the review and all of that and specific 
requirements. So let me just go on to bill to H.R. 3786. There 
is an area on the map labeled restricted no development zone. 
Can you explain, Mr. Ring, what that term means, the restricted 
no development zone, how it will be enforced, against whom it 
will be enforced, and why is that needed?
    Mr. Ring. As I understand it right now, that area would be 
part of the 370 acres that would be given up in the exchange. 
However, deed restrictions would be placed on it that would run 
with the land and basically enforceable by anyone is the way 
the proposal has currently been put forward and it is--it 
represents an area of land on the heights above the rest of the 
parcel so that there would not be development above it on the 
bluffs above that parcel in the future.
    Mrs. Christensen. The other question--it is not really 
noted in the bill particularly, that is on the official map, 
but it is not included in the legislation. Is there anywhere 
that it is written that there should be no restriction other 
than on that map? The only place we could find it is on the 
map.
    Mr. Ring. The bill would authorize the exchange of the 152 
acres for the 370 without condition. The process that we would 
move through from there is to consider that appraisal as part 
of an environmental analysis with public review that would look 
at the specifics of the proposal and any conditions on it or 
deed restrictions that have been presented, and reach a final 
detailed conclusion related to the particulars of the exchange.
    Mrs. Christensen. So it would be exchanged without any 
restrictions at the time of the exchange and you are saying 
that after the exchange, then a process would be put in place 
to decide what restrictions might be--
    Mr. Ring. No. There would be an evaluation through an 
appraisal as part of an environmental analysis that the 
National Park Service would do as--once this authority was in 
place that would look at the particulars of the proposal and 
any deed restrictions that might be associated with the parcel 
and reach a final determination on the exchange, which then 
would be concluded.
    Mrs. Christensen. I see. OK, the legislation also--am I out 
of time--the legislation contains a provision increasing the 
acreage limit for the NRA. Why is there a need for a limit in 
statute, and could the NRA be substantially expanded without 
congressional approval?
    Mr. Ring. To answer your last question first, no, it could 
not be substantially expanded without specific congressional 
approval. There is some authority for minor boundary 
adjustments where they are willing--landowners who are willing 
to sell lands to the government, but without specific 
legislative authority to change the boundary, we couldn't do 
that and the acreage is associated with the mapped authorized 
boundary. It typically is a factual statement of how many acres 
are within that authorized boundary, and it is just a way of 
double-checking that we are within the right footprint.
    Mrs. Christensen. Thank you, Mr. Ring.
    Mr. Radanovich. Thank you, Mrs. Christensen, and I want to 
thank the panel for your testimony here today. Ms. Manning, 
thank you very much. Mr. Ring, appreciate your testimony here 
today and we will call the next panel of witnesses.
    Next up will be Mr. Todd Davidson, Vice Chairman of the 
Western States Tourism Policy Council from Portland, Oregon; 
Mr. Bob Warren, Chairman of the National Alliance of Gateway 
Communities, Redding, California; The Honorable Betsey Hale, 
Commissioner of Montrose County, Montrose, Colorado; Ms. Laura 
Loomis, Director of Visitor Experience, National Park 
Conservation Association in Washington, D.C.; and Mr. Stephen 
Thomas, Northern Plains Regional Director of the Sierra Club, 
Sheridan, Wyoming. Ladies and gentlemen welcome to the 
Committee and I want to thank you very much for taking time out 
of your busy schedules to testify here today. We will start 
from my left to right for testimonies. If you would please keep 
your testimony under the 5-minute mark I would appreciate it 
very much. H.R. 4622
    Mr. Radanovich. And again, Mr. Todd Davidson, welcome, and 
you may begin your testimony. And then we will go right down 
the line.

   STATEMENT OF TODD DAVIDSON, VICE CHAIRMAN, WESTERN STATES 
            TOURISM POLICY COUNCIL, PORTLAND, OREGON

    Mr. Davidson. Thank you, Mr. Chairman, and good afternoon. 
I am Todd Davidson. I am pleased and honored to be able to 
speak to you this afternoon, both as the executive director of 
the Oregon Tourism Commission and the Vice Chair of the Western 
States Tourism Policy Council, the WSTPC. To express our strong 
support for H.R. 4622, the Gateway Communities Cooperation Act 
of 2002. Formed in 1996, the WSTPC is a consortium of 13 
western State tourism offices, including the States of Alaska, 
Arizona, California, Colorado, Hawaii, Idaho, Montana, Nevada, 
New Mexico, Oregon, Utah, Washington and Wyoming.
    The mission of the Western States Tourism Policy Council is 
simple. It is to advance the understanding and support for 
public policies that enhance the positive impact of travel and 
tourism on the economy and the environment of the member 
States. The WSTPC is proud of the close productive relationship 
that we have developed with 11 Federal agencies that have a 
significant impact on tourism and recreation in the west. We 
meet with our Federal partners on a regular basis to exchange 
information and ideas, to develop joint projects including 
several successful conferences on topics of mutual concern. As 
no surprise to you, Mr. Chairman, tourism is a vital part of 
the economic vitality of the west.
    It is a powerful economic engine that generates billions of 
dollars and millions of jobs. In the west, more than half of 
the total land area is Federal land, and 11 of the Western 
States Tourism Policy Council member States are among the 12 
top States in percentage of Federal land acreage. Furthermore, 
hundreds of communities in the west serve as gateways, as you 
heard this afternoon, for millions of visitors to these Federal 
lands.
    So the 13 individual State tourism offices that comprise 
the WSTPC each work closely with the gateway and their States 
providing advice and counsel and marketing support. Each WSTPC 
member state tourism office also strives to work closely with 
their Federal land agency partners in their respective States. 
We understand that the policies and programs and the activities 
of those agencies have a direct and significant impact on 
gateway communities and the State. In September 1998, the 
WSTPC, with all its Federal partners, organized a major 
conference on the subject of gateway communities. There were 
nearly 500 folks in attendance evenly split between gateway 
leaders and agency staff.
    That conference was so successful that we are currently in 
the planning process with our Federal partners in the National 
Alliance of Gateway Communities on a second gateways conference 
that will be held December 3 through 5 on the Santa Ana Pueblo 
near Albuquerque, New Mexico. And Mr. Chairman, I hope you will 
be able to join us this December. It is following the election. 
It is because of our substantial experience working with both 
gateway communities and with our Federal land management 
partners that the WSTPC enthusiastically endorses and supports 
H.R. 4622. But in discussing H.R. 4622, let me first try and 
clarify some of the possible misperceptions.
    First, we do not read H.R. 4622 as an invitation to bash 
the agencies. Many local and national Federal land managers 
understand the importance of good relations with their gateway 
communities and make the proactive attempt to cultivate those 
good relations and they are to be commended. Second, we do not 
see that H.R. 4622 gives the gateway communities any type of 
veto over policies, decisions or programs or activities of any 
Federal land agency. It does not give gateway preference or 
priority over any other stakeholders. That has never been the 
intent of this bill, and if necessary, we would support 
amending the language to clarify that point.
    Third, we don't think that H.R. 4622 is contrary to the 
environmental values and goals of our Nation. No one loves the 
natural beauty and wildlife of our national parks, forests and 
other Federal public lands more than many of those that have 
chosen to spend their lives in the communities next door to 
them.
    Fourth, we don't believe this bill elevates local interests 
over national interests. We recognize we are talking about 
national parks and national forests and we must always be 
responsive first and foremost to national priorities.
    Fifth, this bill does not place any additional mandates on 
gateway communities because it will be their voluntary choice 
to participate. But what the bill does do is provide a balanced 
reasonable response to a widespread concern. Many Federal land 
managers and local leaders do indeed understand the importance 
of gateway communities, but it is not always the case. As we 
heard at our Gateway's Conference in 1998, two of the common 
refrains were that the agencies too often ignore the interest 
of gateways without reason, and that many gateways have 
insufficient staff and expertise to participate in a truly 
meaningful way.
    Therefore, the greatest value of H.R. 4622 is to declare as 
a matter of national policy that Federal land managers are 
required to support and communicate and cooperate with the 
designated gateway communities. Second, the small gateway 
communities are expected to interpret and comment on complex 
agency draft planning documents without the staff and expertise 
to interpret and evaluate the potential ramifications of those 
plans. But this bill would enable gateways to be much more 
involved as meaningful participants in those agency-planning 
efforts.
    In essence, H.R. 4622 institutionalizes the gateway's 
community involvement with their Federal land management 
neighbors. So Mr. Chairman, this seems to us to be fair and 
reasonable legislation. It is long overdue recognition of the 
importance of gateway communities and describes a carefully, 
thought-out strategy to make them stronger, more effective 
partners. Robert Frost told us that good fences make good 
neighbors. We believe that H.R. 4622 shows how good laws can 
also play a key role in helping make good neighbors of gateway 
communities and Federal land management agencies.
    Mr. Radanovich. Good point. Thank you very much Mr. 
Davidson for your testimony.
    [The prepared statement of Mr. Davidson follows:]

   Statement of Todd Davidson, Vice Chairman, Western States Tourism 
     Policy Council, Executive Director, Oregon Tourism Commission

    Good afternoon, Mr. Chairman and members of the subcommittee. I am 
Todd Davidson and I am pleased and honored to speak to you this 
afternoon as Vice Chairman of the Western States Tourism Policy Council 
(WSTPC) to express our strong support for H.R. 4622, the ``Gateway 
Communities Cooperation Act of 2002.'' I also serve as executive 
director of the Oregon Tourism Commission.
The WSTPC
    Formed in 1996, the WSTPC is a consortium of thirteen western state 
tourism offices, including the states of Alaska, Arizona, California, 
Colorado, Hawaii, Idaho, Montana, Nevada, New Mexico, Oregon, Utah, 
Washington and Wyoming. The mission of the WSTPC is to advance 
understanding and support for public policies that enhance the positive 
impact of travel and tourism on the economy and the environment of its 
member states and their communities.
    The WSTPC is proud of the close and productive partnership it has 
developed with eleven Federal agencies that have a significant impact 
on tourism and recreation in the West, including all the major Federal 
land management agencies. We meet with our Federal partners on a 
regular basis to exchange information and ideas and to develop joint 
projects, including several successful conferences on topics of mutual 
concern. Two memoranda of understanding, in 1997 and in 2001, have 
defined our partnership.
Tourism and Gateways in the West
    Tourism is a vital component of the economy of the American West, a 
powerful economic engine that provides millions of jobs. Nature and 
history have combined to make the West immensely appealing to visitors 
from throughout the United States and the world. Eight of the states 
that comprise our Council are among the twelve most tourism dependent 
states in the nation in terms of per capita receipts.
    In the West much, if not most, tourism is public lands tourism. In 
the West, more than half of the total area is Federal land, and eleven 
of the WSTPC member states are among the top twelve states in 
percentage of Federal land acreage.
    Hundreds of communities in the West serve as ``gateways'' for 
millions of visitors to these Federal lands. For these communities, 
which are typically small and rural, the business generated by these 
visitors is a vital component of their local economies. The cumulative 
impact is significant for our state economies.
    The thirteen individual state tourism offices that comprise the 
WSTPC each work closely with the gateway communities in their states, 
providing advice, counsel and marketing support to enable those 
communities to reach their tourism and recreation business goals.
    Each WSTPC member state tourism office also strives to work closely 
with the Federal land agencies in their respective states. We 
understand that the policies, programs and activities of those agencies 
often have a direct and significant impact on nearby communities and, 
indeed, on the entire state.
    In September, 1998, the WSTPC, with all its Federal partners, 
organized a major conference in Tacoma, Washington, on the subject of 
gateway communities. There were nearly 500 in attendance, evenly split 
between gateway leaders and agency staff. Nearly everyone agreed that 
it was an extremely worthwhile exercise as both gateways and agencies 
exchanged viewpoints, candidly talked about problems in their 
relationships and learned how they could work more closely together. 
That conference was so successful that we are currently working with 
our Federal partners, and with the National Alliance of Gateway 
Communities on a second Gateways Conference, that is scheduled later 
this year, on December 3-5, on the Santa Ana Pueblo in Bernalillo, New 
Mexico.
    Mr. Chairman, please let me take this opportunity to invite you and 
the other members of the Subcommittee to participate in this second 
gateways conference in December.
    It is because of our substantial experience working with both 
gateway communities and with the Federal land agencies that the WSTPC 
enthusiastically endorses and supports H.R. 4622. We commend you, Mr. 
Chairman, for having the vision to introduce it.
What This Bill Will Not Do
    Let me first try and clarify some possible misimpressions about 
this legislation as we understand it.
    First, we do not read H.R. 4622 as an invitation to ``bash the 
agencies.'' Many local Federal land managers understand the importance 
of good relations with their gateway communities and make an active, 
proactive attempt to cultivate those good relations. They are to be 
commended. At the national level, the Federal land agencies over the 
last decade have increasingly the importance of gateways and have 
organized seminars and training programs for their senior staff on 
gateway relationships. These programs should continue.
    Second, we do not see that H.R. 4622 gives gateway communities any 
type of veto over policies, decisions, programs or activities of any 
Federal land agency. It does not give gateways preference or priority 
over any other stakeholders. That has never been the intent of the bill 
and, if necessary, we would support amending language to clarify these 
points.
    Third, we do not think that H.R. 4622 is, in any, contrary to the 
environmental values and goals of our nation. No one loves the natural 
beauty and wildlife of our magnificent national parks, forests and 
other Federal public lands more than those who have chosen to spend 
their lives in the communities next door to them.
    Fourth, we do not believe that H.R. 4622 elevates local interests 
over the national interests. We recognize that we are talking about 
national parks and national forests, and they must always be responsive 
first and foremost to national priorities.
    Fifth, H.R. 4622 does not place any additional mandates on gateway 
communities. It will be the voluntary choice of the gateway as to 
whether it seeks to utilize any of the provisions of the bill.
What This Bill Will Do
    H.R. 4622 is a balanced, reasonable response to a widespread 
concern. As we have noted, in many instances, relationships between 
Federal land agencies and their gateway communities are harmonious and 
productive. Many Federal land managers and local leaders do indeed 
``get it'' and work harmoniously together.
    They understand that the community and the Federal land are 
inevitably interconnected. They understand that it is not a ``zero sum 
game,'' but that the health and vitality of one has a direct impact on 
the other. They understand the imperative of being ``good neighbors'' 
with their gateways. They understand that the Federal lands are poorly 
served by gateway communities that are weak and resentful,
    But this is not always the case. At the 1998 WSTPC-Federal Agencies 
Gateway Conference, two common refrains were that the agencies too 
often ignored the interests of gateways without reason and that many 
gateways have insufficient staff and expertise to participate in a 
truly meaningful way in agency policy-making processes. At present, it 
is up to each Federal land manager to decide what relationships he or 
she wants to have with gateway communities. There has never been a 
statutory declaration that gateway communities are critical to the 
mission of the agencies and that cooperation and coordination should be 
fostered.
    The first and greatest value of H.R. 4622, therefore, is to declare 
as a matter of national policy that Federal land managers are required 
``to support, and to communicate, and cooperate with designated gateway 
communities.'' The bill provides historic recognition by Congress that 
gateway communities are integral to the mission of the public lands, 
the first points of contact for visitors and the providers of essential 
services to both visitors and the public lands.
    In the closing days of the Clinton Administration, T. Destry 
Jarvis, then Senior Advisor to the Assistant Secretary of Interior for 
Fish and Wildlife and Parks, wrote: ``... no land-use decision around a 
national park is exclusively local or national, but always has 
implications on both. The National Park Service should realize its 
affirmative responsibility to actively participate in local land-use 
decisions, and should similarly be aware of the effects of its 
decisions on its neighbors, allowing them to be involved in the process 
of arriving at those decisions.'' H.R. 4622 would be an historic step 
towards that goal.
    Too many times, small gateway communities--towns and counties--are 
expected to interpret and comment on complex agency draft planning 
documents without staff and expertise to interpret and evaluate the 
potential ramifications of those plans for the communities. H.R. 4622 
would enable gateways to be much more meaningful participants in those 
agency planning processes by:
    (1) Lreceiving early, non-technical summaries of such plans, their 
assumptions and objectives and the anticipated impact on gateway 
communities;
    (2) Lreceiving the earliest practicable public notice of proposed 
decisions that may have a significant impact on gateway communities;
    (3) Lreceiving training from the agencies about their planning 
processes and how they can best participate;
    (4) Lreceiving technical assistance from the agency, including 
assigned agency staff or contractor to work with the gateway to 
understand and respond better to proposed agency plans;
    (5) Lreceiving, on request, a review from the agency of its land 
use, management or transportation plans likely to affect the community;
    (6) Lentering into cooperative agreements to coordinate local land 
use plans with those of the Federal land agency, other Federal 
agencies, State governments and tribal governments;
    What these provisions would do is to institutionalize gateway 
community involvement with their Federal land neighbors. It would 
systematize and set parameters on planning processes that have until 
now been inconsistent and unclear from the perspective of local 
communities. Plans do matter. The Federal land agencies are guided in 
future years by the assumptions and conclusions of their plans. They 
will be better plans--more effective and more accepted--with greater 
community involvement.
    It is also worthy of special note that H.R. 4622 will require 
interagency coordination and consolidation when the plans and planning 
processes of two or more Federal land agencies are anticipated to have 
an impact on a gateway community. This will go a long way towards 
reducing overlap, redundancy and confusion for gateways near multiple 
Federal lands with multiple plans.
    With the support and assistance provided by these provisions, 
reinforced by the agency grants authorized by H.R. 4622, gateways will 
be prepared and qualified to participate as cooperating agencies under 
NEPA processes as allowed under this legislation.
Conclusions
    Mr. Chairman, this seems to us fair and reasonable legislation. It 
is long overdue recognition of the importance of gateway communities 
and prescribes a carefully thought out strategy to make them stronger 
and more effective partners of their Federal land neighbors. Robert 
Frost told us that ``Good fences make good neighbors.'' We believe that 
H.R. 4622 also shows how good laws can also play a key role in helping 
make good neighbors of gateway communities and the Federal land 
agencies.
    We urge that H.R. 4622 be enacted as early as possible.
                                 ______
                                 
    Mr. Radanovich. Mr. Warren, welcome to the Committee and 
again you may begin your testimony and abide by the traffic 
lights we have out there.

STATEMENT OF BOB WARREN, CHAIRMAN, NATIONAL ALLIANCE OF GATEWAY 
                COMMUNITIES, REDDING, CALIFORNIA

    Mr. Warren. Thank you, Chairman Radanovich, and other 
Committee members for the opportunity to testify today. I am 
here representing the city of Redding, California, and as 
Chairman of the National Alliance of Gateway Communities. 
Redding is the perfect example of a gateway community. Within a 
10-mile radius, they are the boundaries of an NPS unit, BLM 
lands and the national forest. I am also representing the 
National Alliance Gateway Communities as the only national 
organization solely dedicated to representing the interest of 
gateway communities.
    In California and in the west, many communities are 
transitioning to more diversified economies less based on 
resource extraction. We know in the future, visitors to public 
lands will play an increasingly more important role in the 
economies of our gateway communities. In light of the impact on 
tourism of the events of last September, we also know that 
luring back many of the visitors to rural America will be 
difficult. Those of us in the west also know that public lands 
will be the magnet that draws both domestic visitors and 
internationals back to our rural communities. Many of the 
supervisors, superintendents and managers of public land 
management units are keenly aware of the importance of working 
with their gateway communities.
    I know in my area, many of them make daily efforts to 
interact with community leaders. Unfortunately this is not 
always the case. There are too many examples where 
relationships are inconsistent and unreliable and often too 
dependent on the personalities involved. What we want to do by 
enacting this legislation is to take a major step toward 
institutionalizing those relationships.
    Mr. Warren. Many of the management plans for significant 
public land units devote hundreds of pages to natural resource 
preservation while devoting just a paragraph or two to the 
people who live in or adjacent to their unit. For example, 
although economic and social impacts are supposed to be 
considered in national forest management plans, the plan for 
one national forest in Utah has about one paragraph that 
addresses these issues with more than 100 pages addressing 
various habitat scenarios.
    Careful consideration is given to the goshawk, but little 
is given to the gateway communities and the people who live 
there. We do not object to thorough consideration of 
environmental and wildlife issues, but surely the interests and 
concerns of gateways and the families that make their homes 
there should also get serious consideration.
    In the mid-1990's, the five communities that are gateways 
to Yellowstone National Park decided to form the Yellowstone 
Gateway Alliance to speak with one voice on issues of common 
concern to all of them. The superintendent of the park at that 
time flatly refused to talk with the gateways as a group.
    H.R. 4622 would not compel any superintendent to talk to 
such coalitions, but it would clearly declare that the intent 
of Congress is to support much greater cooperation, 
coordination, and communication.
    In my written statement, other examples which emphasize the 
need for this bill are also cited.
    Under NEPA regulations, the State is always considered a 
cooperating agency, and often counties. In rural locations this 
may not be enough. We have all heard of the saying ``a sense of 
community,'' but who has ever heard a sense of county or sense 
of State? This is because communities are the social structure 
of rural America.
    When communities are making significant planning changes, 
they are required to comply with numerous Federal environmental 
mandates. This makes for a one-way street, as the communities 
are provided no provision to comment on changes on adjacent 
Federal lands. Although H.R. 4622 does provide gateway 
communities a seat at the table, the bill does not give a 
gateway community a veto over agency programs, actions or 
policies. The bill would give local public land managers a 
greater understanding of the needs and perspectives of their 
adjacent communities.
    In closing, I don't think we can any longer deny our 
gateway communities legal standing in the Federal 
decisionmaking process. Often parks are the foundation of a 
community's culture, commerce, and heritage. The EIS process is 
often highly politicized and charged with emotion. The politics 
and emotions that dramatically play out in our communities over 
this wrenching drama is for naught if our communities cannot 
have a meaningful stake in the process.
    Often this process is affected by the sparse rural 
population representation in the West, pitted against well-
meaning urban political agendas driven by well-financed and 
staffed special interest groups. This leads to many gateway 
communities feeling as if they are being treated like children 
when told to ``Eat your vegetables, it is what is best for 
you.''
    Leaders in gateway communities are faced with the daily 
tension of attempting to balance commerce and conservation, of 
preserving enduring wildness, while enhancing economic well-
being. This tension is of course by choice, as those of us who 
live in rural gateway locations most often would choose to be 
nowhere else.
    We feel that this important bill will help bridge the gap 
between today and tomorrow, while striving to preserve all that 
is natural as well as maintaining the character of our 
communities. A consistent Federal process of inclusion of the 
leaders of gateway communities would improve the process, the 
politics, and the outcome. All we ask is some say in our 
future.
    Mr. Chairman, your bill is landmark legislation. Its 
enactment will open a new day for gateways. Thank you very 
much.
    Mr. Radanovich. Thank you very much, Mr. Warren.
    [The prepared statement of Mr. Warren follows:]

    Statement of Bob Warren, Chairman, National Alliance of Gateway 
 Communities, Tourism Development Manager, City of Redding, California

    Thank you Chairman Radanovich and other subcommittee members for 
the opportunity to testify on behalf of HR4622. I am here representing 
the City of Redding, California, as the Tourism Development Manager and 
as Chairman of the National Alliance of Gateway Communities. Redding is 
the perfect example of a gateway community. Within a ten mile radius, 
there are the boundaries of a National Park Service Unit, Bureau of 
Land Management lands, and a National Forest. The City benefits from 
this close proximity in the form of significant tourism dollars, and of 
course beautiful natural attractions. I am also here as the Chairman of 
the National Alliance of Gateway Communities (NAGC). The NAGC was 
formed at the encouragement of many Federal land use managers, who felt 
there was a role for an organization to help small gateway communities 
become more skilled at interacting with Federal agencies. This 
organization is the only national organization solely dedicated to 
representing the interests of gateway communities.
    On behalf of the NAGC and gateway communities everywhere, we thank 
you, Mr. Chairman, for introducing this historic bill. To the best of 
our knowledge, it is the first bill ever to recognize the importance of 
gateway communities and focus exclusively on several of their major 
needs and concerns.
    Gateway communities, by their very nature, are close to public 
lands. This symbiotic relationship creates an arrangement where the 
public land units need the communities for their services, while the 
communities need the public lands as attractions. In California and in 
the West, many communities are transitioning to more diversified 
economies, less based on resource extraction. We know in the future, 
visitors to public lands will play an increasingly more important role 
in the economies of our gateway communities. In rural California, every 
$63,000 spent by travelers creates one new job. Also, many of those 
visiting public lands are international visitors who often make their 
visit to America a visit to rural America. Germans alone account for 
hundreds of thousands of visits to public lands in California annually. 
One national park in Northern California surveyed visitors during a 
one-month period several years ago, and 11 percent of all visitors were 
German. Obviously, the dollars spent by these foreign visitors and 
others are important to both the economies of gateway communities as 
well as to the national balance of trade. In light of the impact on 
tourism of the events of last September, we know luring back many of 
these visitors to America will be difficult. Those of us in the West 
also know that public lands will continue to be the ``magnets'' that 
draw both domestic visitors and internationals back to our rural 
communities.
    Many of the supervisors, superintendents, and managers of public 
land management units are keenly aware of the importance of working 
with their gateway communities. I know in my area, many of them make 
daily efforts to interact with community leaders. Unfortunately, this 
is not always the case. There are too many examples where relationships 
are inconsistent and unreliable and are often too dependent on the 
personalities involved. What we want to do by enacting this legislation 
is to take a major step towards institutionalizing those relationships 
by putting them on a firmer statutory base.
    There are also examples of public land management unit managers 
showing little concern for the economics of gateway communities and 
purposefully attempting to affect development outside their management 
units. In one instance in the Northwest, a new national park 
superintendent was interviewed for an article in a major newspaper in 
which he indicated opposition to a planned destination resort more than 
11 miles from the park that he managed. In his zeal to develop a strong 
relationship with the environmental community, he neglected to 
communicate with the developer who had, for the previous nine years, 
worked in concert with the park superintendent's predecessor and staff 
on the planning of this resort. Although H.R. 4622 would certainly not 
have affected his ability to speak out on this issue, he would have at 
least known that he also would need to develop a relationship with the 
adjacent communities, so when issues related to important park 
management decisions came up, the community would be part of his 
planning process.
    Many of the management plans for significant public land devote 
hundreds of pages to natural resource preservation, while devoting just 
a paragraph or two to the people who live in or adjacent to that unit. 
Their frustration is exacerbated when their communities do not have a 
``seat at the table''.
    For example, although economic and social impacts are supposed to 
be considered in national forest management plans, the plan for the 
Kaibab National Forest in Utah has about one paragraph that addresses 
these issues with more than 100 pages addressing various habitat 
scenarios. Careful consideration is given to the goshawk, but little is 
given to the gateway communities and the people who live there. Now we 
want to be clear. We do not object to thorough consideration of 
environmental and wildlife issues; indeed we strongly support such 
examination. But surely the interests and concerns of gateways and the 
families and businesses that make their homes there should also get 
serious consideration.
    In another Utah example, at Escalante, we have seen a situation 
where a multi-state, Federal, county, local joint visitor campus and 
science education facility is being built in conjunction with the new 
Grand Staircase National Monument that is under BLM management. 
Unfortunately, Federal managers in this case are NOT engaged with the 
local community. Quite the opposite, to the point that, against the 
wishes of Congressional appropriators, there will be two competing 
visitor facilities in Escalante--a serious case of waste and lost 
opportunity.
    In the mid-1990s, the five communities that are gateways to 
Yellowstone National Park decided to form the Yellowstone Gateway 
Alliance to speak with one voice on issues of common concern to all of 
them. The superintendent of the park at that time flatly refused to 
talk with the gateways as a group. H.R. 4622 would not compel any 
superintendent to talk to coalitions of gateway communities, but it 
would clearly declare that the intent of Congress is to support much 
greater cooperation, coordination and communication between gateway 
communities and Federal land managers.
    In Alaska, two recent examples can be cited of failed relationships 
between gateway communities and the National Park Service. One arose 
when the NPS, contrary to its early promises, persisted in denying 
local ``traditional'' use of the Dyea Valley (e.g. firewood cutting, 
Christmas tree gathering and beach access) which the State of Alaska 
allowed it to manage, and resulted in the State finally, in 
frustration, agreeing to let the City of Skagway annex the valley. In 
the other example, the McCarthy Area Council, a non-profit, quasi-
governmental organization representing residents of the McCarthy-
Kennecott area has encountered stiff NPS resistance to efforts to 
develop interpretive sources that are locally derived. According to 
Thea Agnew, the President of the McCarthy Area Council:
        We feel strongly that local people need to be empowered to tell 
        the stories of the place. The problem is, however, that such a 
        small community lacks resources--particularly financial 
        resources--to compete (and it does feel like competition) with 
        the Park. They have an interpretive staff, a budget, visitors 
        centers, contracts with graphic artists to develop signs and 
        activities, the list goes on. We have a lot of volunteers, a 
        lot of interested people, and tiny, occasional pots of money to 
        do small projects with.
    Lake Havasu and the lower Colorado River management team have 
recently been wrestling with environmental impact statements and the 
impacts of boating near one of the refuges. This environmental review 
process does not include the communities that will be economically 
impacted if boating regulations are modified in this area. There has 
been an effort by both Lake Havasu City and Yuma, Arizona, to become 
part of the planning process. Because there is no stipulation for 
including communities at the table, the land use managers have not had 
the opportunity to receive meaningful input from them.
    A recent prominent instance reported in the news where communities 
were completely shut out of the planning process occurred at our first 
national park. The gateway communities around Yellowstone National Park 
count on winter access into Yellowstone as part of their economic 
viability. The 2000 winter use plan for Yellowstone called for a ban on 
snowmobile usage in the park. This would have devastated several 
communities adjacent to Yellowstone. Despite repeated attempts by local 
gateway towns to obtain cooperating agency status during the 
development of that winter use plan, they were never given the 
opportunity to be ``at the table'' with the neighboring states and 
adjacent counties during this process. Fortunately, a supplemental EIS 
is now under review that includes additional options for consideration.
    Another example involves the Bureau of Land Management in 
California and Arizona. When the BLM was sued to close off-road vehicle 
access to the Imperial Sand Dunes in California, the City of Yuma, 
Arizona, located directly across the Yuma River from the Dunes was not 
informed by the BLM of the litigation until the day before the court 
hearing in San Francisco. The BLM said because they regarded the matter 
as a California issue, even though Yuma is the gateway community for 
the Dunes. The result was that 45,000 acres of the Dunes were closed to 
off-road vehicle use, with a sharp negative economic impact on Yuma, 
without the gateway community ever getting an opportunity to comment or 
respond prior to the decision. (At a recent Yuma community meeting 
about the issue, nearly 400 local citizens attended and more than a 
hundred testified against the ban. It should also be noted that the 
plants said to be endangered are now doing more poorly in the banned 
area than in the area not affected.)
    Under NEPA regulations, the State is always considered a 
cooperating agency, and often counties are also included. In rural 
locations, this may not be enough. We have all heard the saying, ``a 
sense of community'' but who has ever heard ``a sense of county or a 
sense of State?'' This is because communities are the social structure 
of America. Those living in communities always have a vested interest 
in preserving adjacent public lands, as without them, the communities 
would suffer economically, and spiritually. Although there may be 
individual business operators looking for a ``quick buck,'' communities 
for the most part must be into the conservation of our public lands for 
the long haul. Any short-sighted decisions would adversely affect their 
communities both socially and economically.
    When communities are making significant planning changes, 
especially involving land use issues, they are required to comply with 
a host of Federal environmental mandates. Many agencies often comment 
on their proposed planning efforts. This makes for a one-way street, as 
the communities have far less opportunity to comment on proposed 
changes on adjacent Federal lands. Although H.R. 4622 does provide 
gateway communities a ``seat at the table,'' the bill does not give a 
gateway community a veto over agency programs, actions, or policies. 
The bill would promote cooperation and coordination and give local 
Federal land managers a greater understanding of the needs and 
perspectives of their adjacent communities. I might add that it will 
also give local leaders a greater understanding of the needs and 
perspectives of their local Federal land managers.
    In closing, I don't think we can any longer deny our gateway 
communities legal standing in the Federal decision-making process. 
Often, parks are the foundation of a community's culture, commerce, and 
heritage. The EIS process is often highly politicized, charged with 
emotion--a veritable lawsuit waiting to happen. The politics and 
emotions dramatically play out in our communities. This wrenching drama 
is for naught if our communities cannot have a meaningful stake in the 
process. Often, this process is affected by the sparse rural population 
political representation in the West, pitted against well meaning, 
urban political agendas driven by well-financed and staffed special 
interest groups. This leads to many gateway communities feeling as if 
they are being treated like children, when told to ``eat your 
vegetables, it's what's best for you''. H.R. 4622 will reform the 
process and level the playing field by appropriately including gateway 
communities.
    Leaders in gateway communities are faced with the daily tension of 
attempting to balance commerce and conservation, of preserving enduring 
wildness while enhancing economic well-being. Our communities will 
survive only if we are constantly ensuring that the needs of nature are 
met while people are allowed to make a living. This tension is of 
course by choice, as those of us who live in rural, gateway locations 
most often would choose to be nowhere else. We feel that this important 
bill will help bridge the gap between today and tomorrow, while 
striving to preserve all that is natural, as well as maintaining the 
character of our communities. A consistent Federal process of inclusion 
of the leaders of gateway communities would improve the process, the 
politics, and the outcome. All we ask is some say in our future.
    Let me conclude with a statement that another NAGC director has 
asked me to present to the subcommittee today. This statement is from 
Karen Alvey, former mayor of Kanab, Utah, who has tried hard to ensure 
that the Escalante National Monument is developed in accord with 
national and local values and goals.
        After much thought, I have decided that the whole process of 
        planning on public lands must be done with the communities at 
        the table and early on. Most of the public officials have other 
        jobs, cannot afford full time staff to attend and gather 
        information, and lack the knowledge to make good decisions on 
        management issues. If it is mandated to invite the community's 
        leaders in early so that they can become educated, then better 
        decisions are made. Planning seems to go on forever, then 
        decisions are made and announced to the communities.
    H.R. 4622 would result in closer, more productive cooperative 
relationships between gateways and Federal land managers, benefiting 
both the communities and the Federal lands, responding to both national 
and local values. H.R. 4622 would enhance the capability of gateways to 
participate more effectively and more meaningfully in agency planning 
processes for the betterment of all. It should become law.
    Mr. Chairman, your bill, H.R. 4622, is landmark legislation. Its 
enactment will open a new day for gateway communities throughout the 
nation.
                                 ______
                                 
    Mr. Radanovich. The Honorable Betsey Hale, welcome to the 
Committee--from Montrose County, Colorado. And please begin 
your testimony. Thank you.

   STATEMENT OF BETSEY HALE, COMMISSIONER, MONTROSE COUNTY, 
                       MONTROSE, COLORADO

    Ms. Hale. It is an honor and privilege to testify before 
you today. My name is Betsey Hale, and I am a county 
commissioner in Montrose County, Colorado. I am here today 
representing my community of Montrose County, Colorado 
Counties, Incorporated, and the National Association of 
Counties, NACo.
    We strongly support the principles underlying the Gateway 
Communities Cooperation Act of 2002. In fact, NACo's American 
County Platform reads in relevant part: NACo believes that the 
most basic principle that must be followed in all actions by 
State and Federal agencies is consultation with local county 
officials as well as municipal and tribal officials who have 
been elected to represent the concerns of those directly 
affected by public land management decisions. NACo encourages 
county officials to take affirmative steps toward developing 
appropriate land management strategies and plans, and believes 
that Federal agencies must make every effort to create a 
cooperative policy that is consistent with these local land use 
plans. Historically, the voices of the counties who are 
directly affected has been largely ignored in the creation of 
lands policy. Therefore, it is imperative that the Federal 
Government work cooperatively with the county and other local 
governments on such policies in the future.
    Our experience illustrates the rationale behind NACo's 
platform language as well as the need for Congress to enact 
H.R. 4622. Montrose County is located in southwest Colorado; 68 
percent of our 1.4 million acres are publicly owned, including 
land managed by the State of Colorado, the Bureau of Land 
Management, the U.S. Forest Service, the Bureau of Reclamation 
and the National Park Service. While the Federal lands are a 
tremendous asset to the citizens of my county in many ways, we 
find that we are simply unable to be the kinds of partners with 
the Federal land managers that we would like to be.
    There are currently eight different land use and management 
plans being drafted by Federal land managers in Montrose 
County. These eight plans affect the gateway to the Black 
Canyon of the Gunnison National Park, the Grand Mesa 
Uncomphagre in Gunnison National Forest, and the Curecanti 
National Recreation Area. County elected officials, county 
staff, and many of our citizens as well, are all trying to 
provide meaningful input to these Federal plans in progress.
    At the same time, we are in midst of developing a regional 
wildfire management plan. Simultaneously, we are working with 
the Forest Service to develop a forest restoration partnership 
to improve forest management in three States. As if that 
weren't enough, we are in the process of rewriting our county 
master plan and our zoning and subdivision regulations to 
address the impacts of a 38 percent growth rate which we have 
experienced in the last 10 years.
    With all this going on, Mr. Chairman, our planning and 
zoning staff are already stretched to the limit just providing 
basic services to our citizens. As you can see, we simply 
cannot do any more to demonstrate our good faith as partners 
with the Federal land managers. Unfortunately, the multitude of 
plans being drafted at the moment leaves us feeling 
overwhelmed, confused, and wondering how it will all affect us. 
We wonder which meetings, which open houses, public hearings, 
and work sessions we should attend as we struggle to hold down 
jobs, raise families, eat, and even grab a few hours of sleep. 
We worry that decisions are being made by Federal land managers 
that will profoundly affect our livelihoods in agriculture, 
tourism, forestry, and mining.
    Mr. Chairman, we also recognize that collaboration and 
communication works both ways. We know that the decision we 
make on the land under our jurisdiction as county commissioners 
will affect the resources managed by Federal agencies. Yet, 
sadly, we fail to collaborate and communicate on these issues 
of mutual concern because we are simply overwhelmed by the 
sheer volume of work being done all around us. Unfortunately, 
feeling overwhelmed can often lead to a sense of being 
besieged, which in turn contributes to an atmosphere of fear 
and mistrust, where there should be a shared sense of 
partnership and cooperation.
    We believe that if H.R. 4622 is enacted, we would be much 
better off. First of all, the requirement for early notice to 
officials in the gateway communities would enable us to keep 
better track of the Federal management plans and prepare to 
participate. Furthermore, we strongly endorse the provision of 
training and technical assistance. We fear that sometimes, even 
when we are given the opportunity to participate in Federal 
processes, we are not as effective as we should be, simply 
because we don't know how to explain ourselves in the 
appropriate Federalese or don't have the resources to compile 
the data to support our point of view.
    Perhaps the most valuable piece of the bill, however, at 
least from the perspective of Montrose County is the provision 
for consolidated and coordinated interagency planning. We 
would, of course, prefer that the requirement to be more 
stringent than ``to the extent practicable,'' but we strongly 
support the intent of the bill in this regard and would expect 
that the agencies would make every effort to comply with the 
spirit of the law.
    I want to thank you for the opportunity to testify today. 
The chief of the Forest Service has recently spoken out against 
the ``analysis of paralysis'' which can prevent even the most 
commonsense management activities on the part of his agency. 
But interagency cooperation will better enable county officials 
to build a community by and around sound proposals, giving us a 
clear picture of what is going on.
    Thank you so much for your time today, and I look forward 
to answering your questions.
    Mr. Radanovich. Thank you very much, Ms. Hale, appreciate 
your testimony.
    [The prepared statement of Ms. Hale follows:]

Statement of The Honorable Betsey Hale, Commissioner, Montrose County, 
 Colorado, on behalf of Montrose County, Colorado, Colorado Counties, 
              Inc. & The National Association of Counties

    Mr. Chairman and distinguished members of the Committee, my name is 
Betsey Hale, and I am a county commissioner in Montrose County, 
Colorado. I am here today representing my community of Montrose County, 
Colorado Counties, Inc. and the National Association of Counties 
(NACo).
    We strongly support the principles underlying the Gateway 
Communities Cooperation Act of 2002. In fact, our American County 
Platform reads, in relevant part:
          NACo, its Western Interstate Region, state associations of 
        counties and individual county governments have a critical role 
        to play in the policy planning and management of the 775 
        million acres of federally owned lands. The policies, plans, 
        and activities for federal lands have a great impact on 
        adjacent state and local and private lands. In counties with a 
        high percentage of public lands, federal decisions often 
        dictate social and economic conditions.
          NACo believes that the most basic principle that must be 
        followed in all actions by state and federal agencies is 
        consultation with local county officials, as well as municipal 
        and tribal officials, who have been elected to represent the 
        concerns of those directly affected by public land management 
        decisions. NACo encourages county officials to take affirmative 
        steps towards developing appropriate land management strategies 
        and plans and believes that federal agencies must make every 
        effort to create a cooperative policy that is consistent with 
        these local land use plans. Historically, the voice of counties 
        who are directly affected has been largely ignored in the 
        creation of lands policy. Therefore, it is imperative that the 
        federal government work cooperatively with county and other 
        local governments on such policies in the future.
    Our experience in Montrose County illustrates the rationale behind 
NACo's platform language as well as the need for Congress to enact H.R. 
4622.
    Montrose County is located in southwest Colorado. Sixty-eight 
percent of our 1,437,712 acres are public lands, including land managed 
by the State of Colorado, the Bureau of Land Management, the US Forest 
Service, the Bureau of Reclamation and the National Park Service. While 
the federal lands are a tremendous asset to the citizens of Montrose in 
many ways, we find that we are simply unable to be the kinds of 
partners with the federal land managers that we would like to be.
    There are currently eight different land use and management plans 
being drafted by federal land managers in Montrose County. These eight 
plans affect the Gateway to the Black Canyon of the Gunnison National 
Park, the Grand Mesa Uncomphagre National Forest and the Curecanti 
National Recreation Area. County elected officials, county staff and 
many of our citizens, as well, are all trying to provide meaningful 
input to these federal plans in progress. At the same time, we are in 
the midst of developing a regional wildfire management plan. And we are 
also working with the Forest Service on a forest restoration 
partnership which will address forest management in three states. On 
top of all this, we are in the process of rewriting Montrose County's 
Master Plan and zoning and subdivision regulations to address the 
impacts of the thirty-eight percent growth we have experienced over the 
past ten years. With all this going, Mr. Chairman, our planning and 
zoning staff are already stretched to the limit just to provide basic 
service to our citizens.
    As you can see, we simply cannot do any more to demonstrate our 
good faith as partners with the federal land managers. Unfortunately, 
the multitude of plans being drafted at the moment leaves us feeling 
overwhelmed, confused and wondering how it all will affect us. We 
wonder which meetings, open houses, public hearings and work-sessions 
we should attend. As we are trying to hold down jobs, raise families, 
eat and even sleep, we worry that decisions are being made by federal 
land managers that will profoundly affect our livelihoods in 
agriculture, tourism, forestry or mining.
    Furthermore, we know that the decisions we are making on the land 
under our jurisdiction as county commissioners will affect the 
resources managed by the federal agencies. Yet, sadly, we fail to 
collaborate and communicate on these issues of mutual concern because 
we are simply overwhelmed by the sheer volume of work being done all 
around us. This sense of being besieged contributes to an atmosphere of 
fear and mistrust where there should be cooperation.
    We believe that were the provisions of H.R. 4622 to be enacted, our 
situation would be greatly improved. The requirement for early notice 
to the officials in gateway communities, as well as the provision of 
training and technical assistance would be very helpful. Perhaps the 
most valuable, however, at least from the perspective of Montrose 
County, is the provision for consolidated and coordinated interagency 
planning. We would, of course, prefer that the requirement be more 
stringent than ``to the extent practicable'' but we strongly support 
the intent of the bill in this regard and would expect that the 
agencies would make every effort to comply with the spirit of the law.
    Mr. Chairman, as I noted earlier, Montrose County, the counties of 
Colorado and the National Association of Counties strive to be good 
partners in the stewardship of the land we all love, particularly those 
of us in counties which are gateways to the public lands. All we ask is 
that the federal land managers reciprocate by fulfilling their 
obligation to be good partners in return. H.R. 4622 is a good step in 
that direction.
                                 ______
                                 
    Mr. Radanovich. Ms. Laura Loomis with the National Parks 
Conservation Association. Welcome to the Subcommittee. I 
appreciate you being here.

  STATEMENT OF LAURA LOOMIS, DIRECTOR OF VISITOR EXPERIENCE, 
    NATIONAL PARK CONSERVATION ASSOCIATION, WASHINGTON, D.C.

    Ms. Loomis. Mr. Chairman and members of the Subcommittee, I 
am Laura Loomis. I am director of the Visitor Experience 
Program for the National Parks Conservation Association. We 
have submitted our testimony, full testimony, to the Committee, 
so I am just going to summarize here.
    We respect the Chairman's interest in enhancing the 
relationship between gateway communities and the national 
parks. However, we believe H.R. 4622 requires significant 
revision before it provides the appropriate mutual incentives 
and resources that facilitate genuine cooperative efforts 
between national parks and gateway communities.
    We believe that an evaluation of this issue must begin with 
a discussion about the purpose of our national parks and their 
place in society. As Freeman Tilden, who is recognized as the 
father of interpretation in our national parks, so eloquently 
stated half a century ago, quote, ``The national parks are not 
in the least degree the special property of those who happen to 
live near them. They are national domain. The people of the 
States in which national parks happen to exist are rightly 
proud of them, and should normally be the first to rise against 
any spoilation of them; but the preemption and settlement of 
land that happens to border on the present parks, or any that 
may be created later, imply no title to any rights in the 
reserved area beyond what belong to any American,'' close 
quote.
    Given the essential democracy of our parks, the first duty 
of the National Park Service is to manage those parks in the 
national interest. Although gateway communities are expected to 
contribute to the determination of what is the national 
interest, that determination is a task of all the American 
people. Nevertheless, it is also beneficial for the parks and 
their gateway communities to be good neighbors and develop 
mutually respectful relationships.
    The proximity of gateway communities to national parks has 
obvious implications. For example, the desire of many Americans 
to escape to gateway communities that offer clean environments, 
safe neighborhoods, small town atmosphere, and recreational 
opportunities they lack in cities and suburbs brings change to 
those communities. And the folks sitting here to my right, I am 
sure, can all attest to the change that occurs. For example 
Estes Park, Colorado, which borders on Rocky Mountain National 
Park, has seen a 70 percent increase in population in the last 
10 years. And that is largely because it sits on the doorway of 
one of the greatest parks in the world.
    Mr. Radanovich. That would be Yosemite National Park.
    Ms. Loomis. Excuse me, the next greatest. My mistake.
    There have been surveys done that have looked at the 
challenges facing gateway communities, and they have found that 
it is not only important for the parks to be good neighbors to 
the gateway communities, it is important for the gateway 
communities to be good neighbors to the parks. Unfortunately, 
in some corners, it appears that national parks are creating 
crushing burdens on the gateway communities. While the 
desirability of these areas can create challenges for these 
communities, sometimes significant ones, one should not discuss 
impacts without focusing on the enormous benefits of living at 
the doorstep of a national park.
    Those who live by our national parks have unparalleled 
opportunities to experience a piece of our Nation's natural or 
cultural heritage on a daily basis. In addition to the 
recreational life-style benefits that attract so many Americans 
to gateway communities, national parks also produce significant 
economic returns to those communities. They serve as the 
economic anchors, they provide jobs, and they foster economic 
opportunities.
    MPCA recognizes the unique role that gateway communities 
play by virtue of their proximity to the national parks. We 
agree that gateway communities can and should have a voice in 
park policies that affect them. I would argue that they do 
today.
    We also agree that the National Park Service has not always 
done the best job of communicating with gateway communities 
when their interest was involved. On the other hand, gateway 
communities do not always have a perfect record of cooperation 
and communication with their national park neighbors.
    Now, we have heard the officials from the Department, Ms. 
Scarlett in particular mentioned Zion, and there have been 
numerous others; as I mentioned, Estes park, Rocky Mountain; 
Cape Cod has had a wonderful working relationship with the 
park; Bar Harbor, Maine and Acadia National Park; Fort Scott, 
Kansas and Fort Scott National Historic Site, and on and on. 
And so I am not going to go into detail. I do that in my 
testimony.
    However, there are gateway communities that that have not 
always chosen to fully participate. For example, Voyageurs, in 
the development of the management plan, had invited to 
participate, the local communities around Voyageurs. But when 
they realized they weren't going to have a sort of veto 
authority over the plan, they withdrew.
    As far as 4622 is written, we have four significant 
concerns: One is that it provides preference to gateway 
communities over the rest of the public by exempting policy act 
requirements that dictate when cooperating status is justified. 
We believe that gateway communities by their unique position of 
being right next to the park already have a unique opportunity 
and enhanced opportunity to communicate their concerns.
    Second, at a time when the National Parks System is 
underfunded by 32 percent and the national parks maintenance 
backlog exceeds 5 billion, the bill causes the parks to further 
deplete their scarce resources by providing financial grants 
and technological assistance to gateway communities. It is not 
that we don't think this is a good idea, it is just that we 
would like to see it come from somewhere else besides the base 
funding for the national parks.
    Third, the bill appears to require that Federal land 
agencies produce regulatory impact statements for an enormous 
range of activities. We believe this just creates an excessive 
burden on both the staff and the paperwork requirements that 
would be involved.
    And, finally, we believe that the application of 4622 is 
overly broad. Think about it; we have 385 National Park System 
units. They range from the greatest park, Yosemite National 
Park and its hundreds of employees, down to tiny little parks 
that are a quarter of an acre that may have two employees. So 
we need to kind of look at the impact that would have.
    We would suggest a different approach. First, we would like 
to see an analysis of existing authorities for the Park Service 
in how they provide financial and technological assistance to 
gateways. Second, we would like to see the grant program 
reworked, as I said, so that it isn't funded out of the already 
scarce funds.
    And, finally, we would like to encourage the Committee to 
require agencies that undertake and propose actions near 
national parks that could have adverse effects on the resources 
of the park to be required to work with the Park Service. That 
is where I think the requirement for cooperation is the 
greatest need.
    I know I am over my time. Thank you very much. I look 
forward to your questions.
    Mr. Radanovich. Thank you very much. I appreciate your 
testimony.
    [The prepared statement of Ms. Loomis follows:]

  Statement of Laura Loomis, Director of Visitor Experience, National 
                     Parks Conservation Association

    Mr. Chairman and members of the subcommittee, I am Laura Loomis, 
Director of Visitor Experience for the National Parks Conservation 
Association. Thank you for inviting NPCA to testify at today's hearing 
to discuss H.R. 4622, the Gateway Communities Cooperation Act of 2002. 
NPCA is America's only private, nonprofit advocacy organization 
dedicated solely to protecting, preserving, and enhancing the National 
Park System. Our association was founded in 1919 and today has 
approximately 400,000 members who care deeply about the well being of 
our national parks. We appreciate the opportunity to be here today.
    As the title of the H.R. 4622 indicates, it is intended to promote 
increased cooperation between our national parks and the communities at 
their doorstep, often called gateway communities. NPCA agrees that 
cooperation and coordination between parks and gateway communities can 
be quite beneficial in certain circumstances. In fact, more and more 
national park managers and gateway communities are realizing that they 
frequently have common interests that can be furthered by working 
together. However, although we respect the Chairman's interest in 
enhancing the relationship between gateway communities and national  
parks, we believe H.R. 4622 requires significant revision before it 
provides appropriate mutual incentives and resources that facilitate 
genuine cooperative efforts between national parks and gateway 
communities.
    We believe that an evaluation of this issue must begin with a 
discussion about the purpose of our national parks and their place in 
society. Therefore, I will begin by focusing my remarks on the national 
interest in our parks. I will then discuss some of the issues that 
confront gateway communities and the parks, and discuss NPCA's position 
on H.R. 4622.
The National Interest
    President Theodore Roosevelt called the preservation of our parks 
and wild lands ``essentially a democratic movement.'' As such, 
Americans in every community across our land have a claim to how our 
parks are protected, whether they live near them or never set foot in 
one. When we create a national park, we preserve a piece of our natural 
or cultural heritage because it is in the national interest to do so, 
and because future generations have as much a right to experience them 
unimpaired in their time as we and do today.
    As Freeman Tilden, the father of interpretation in our national 
parks, so eloquently stated half a century ago, ``the national parks 
are not in the least degree the special property of those who happen to 
live near them. They are national domain. Yellowstone and Yosemite 
belong as much to the citizens of Maine as to those of Wyoming and 
California; Isle Royale to the New Mexican as much as to the people of 
Michigan. The people of the states in which national parks happen to 
exist are rightly proud of them, and should normally be the first to 
rise against any spoliation of them; but the pre-emption and settlement 
of land that happens to border on the present parks, or any that may be 
created later, imply no title to any rights in the preserved area 
beyond what belong to any American.''
    Given the essential democracy of our parks, the first duty of the 
National Park Service is to manage those parks in the national 
interest. Although gateway communities are expected to contribute to 
the determination of what is in the national interest, that 
determination is a task for all the American people. Nevertheless, it 
is also beneficial for the parks and their gateway communities to be 
good neighbors and to develop mutually respectful relationships. And it 
is understandable that those who reside in local communities around the 
parks believe they have a unique interest in how the parks are managed.
Gateway Communities
    The proximity of gateway communities to national parks has obvious 
implications. For example, the desire of so many Americans to escape to 
gateway communities that offer the clean environment, safe 
neighborhoods, small-town atmosphere and recreational opportunities 
they lack in cities and suburbs brings change to those communities'some 
wanted, some unwanted. A survey conducted in the mid-1990s by The 
Conservation Fund and The Sonoran Institute found that: (1) rapid 
growth frequently overwhelms gateway communities and fails to meet 
local needs and desires; (2) the vast majority of residents in gateway 
communities want a healthy economy that does not jeopardize the 
community's character or natural surroundings; and (3) many residents 
in gateway communities lack information about the land-use and economic 
development options available to them.
    Just as importantly, the survey also found that many gateway 
communities have developed successful initiatives to confront these 
issues and protect their natural, historic and cultural character. This 
is important not only for the gateway communities, themselves, but also 
for their national park neighbors. Development decisions and other 
actions taken or forgone by gateway communities can have an enormous 
impact on adjacent national parks and on the experience of those who 
visit them.
    Unfortunately, the feeling in some quarters appears to be that 
national parks somehow create crushing burdens on gateway communities. 
While the desirability of these areas can create challenges for these 
communities, sometimes significant ones, one should not discuss impacts 
without focusing on the enormous benefits of living at the doorstep to 
a national park. Those who live by our national parks have unparalleled 
opportunities to experience a piece of our nation's natural or cultural 
heritage on a daily basis. In addition to the recreational and 
lifestyle benefits that attract so many Americans to gateway 
communities, national parks also produce significant economic returns 
for those communities. National park units do not achieve their status 
by virtue of the economic development opportunities they present, but 
the positive fiscal impact of national parks on gateway communities is 
undeniable. National Parks serve as economic anchors in many 
communities, providing jobs within the park and fostering economic 
opportunity outside park boundaries. The park economy often replaces 
declining sectors of existing rural economies, and can soften what 
could otherwise be a significant economic blow to declining economic 
opportunity in some rural communities.
    Parks are economic engines that also create what some have called 
``corridors of influence'' in adjacent communities and towns leading to 
them. In these corridors, economic opportunities arise for restaurants, 
hotels, gas stations, souvenir shops, and other service-oriented 
businesses that cater to park visitors and bring valuable sources of 
capital into local communities. At the same time, the development that 
occurs adjacent to national parks is not always in the best interest of 
the parks themselves, or of the purpose for which Congress created them 
for the enjoyment of present and future generations of Americans.
    NPCA recognizes the unique role that gateway communities play by 
virtue of their proximity to national parks, and we agree that gateway 
communities can and should have a voice in park policies that affect 
them. They do today. We also agree that the National Park Service has 
not always done the best job of communicating with gateway communities 
when their interest was involved. On the other hand, gateway 
communities do not have a perfect record of cooperation and 
communication with their national park neighbors. We believe there are 
enormous potential benefits of parks and gateway communities working 
together to solve common problems, as is borne out by the growing list 
of examples where national parks and their local neighbors have 
developed impressive, coordinated solutions to challenges that affect 
them both. And we are pleased to see attention being given to the 
unique relationship that exists between national parks and gateway 
communities. But a legal requirement that places the parochial desires 
of gateway communities above the interest of all the American people is 
not the answer.
Case Studies
    Many examples already exist of exemplary cooperation between parks 
and local communities. One excellent example involves Rocky Mountain 
National Park and the town of Estes Park, Colorado. During the last 
three years, representatives from the park and the local community have 
worked closely to develop transportation solutions that benefit the 
town and park, alike. The park superintendent serves on the town's 
policy and oversight committee, and the park's chief ranger serves on 
the technical committee developing the nuts and bolts of the plan. The 
town and county are in the final stages of their transportation study, 
and the park is helping the town devise a solution that reduces 
congestion and leads to a common shuttle or transportation system 
between the park and the town. Last year they worked together to 
implement improved shuttle service in the park, and the town and county 
both wrote letters of support to the regional director of the Park 
Service that helped move the project forward
    Another example is Zion National Park. In 2001, NPCA awarded the 
Mayor of Springdale, the town council and its citizens our National 
Park Achievement Award for their outstanding work with Zion National 
Park officials to create a seamless public transportation system from 
Springdale into Zion Canyon, the most heavily traveled portion of the 
park. A transportation solution was needed because visitation to Zion 
has increased from 1 million people in 1972 to 2.5 million visitors 
today, subjecting many visitors to the park to city-like traffic jams. 
Less patient drivers who couldn't get into one of the park's 400 spots 
often parked illegally along the roadside, quickly destroying fragile 
canyon habitat. Heavy exhaust fumes often hung in the canyon air. 
Today, with the help of Zion's gateway community, gone is the 
congestion, car exhaust, car noise and the string of cars parked along 
the road. The visitor experience, natural resources, and businesses of 
Springdale have all benefitted.
    Another recent example involved the ban of personal watercraft at 
Cape Cod National Seashore. After significant public input, the 
National Park Service banned jet skis from federal waters, but waited 
to implement the ban until the towns could develop their own jet ski 
policies for contiguous waters. In this case, the towns had extensive 
opportunity to comment on the Park Service's proposal, along with other 
members of the public, and the Park Service then made its judgment 
based on those comments and the information available to it. Then, the 
Park Service provided ample opportunity for the towns to develop their 
own policies.
    None of these examples required the local communities to have 
cooperating status under NEPA. In each case, communication and pursuit 
of a respectful relationship by the Park Service and the local 
communities created benefits for the park, the local community, and 
park visitors.
    There are many other such examples, including successful ventures 
between Bar Harbor, Maine and Acadia National Park, between Fort Scott, 
Kansas and Fort Scott National Historic Site, between Gettysburg 
National Military Park and the borough of Gettysburg, Pennsylvania, and 
between Saguaro National Park and Tucson, Arizona. All of these 
endeavors were undertaken using current law, without any mandates, and 
were successful because the parties wished them to be.
    On the other hand, gateway communities do not always choose to 
fully participate in opportunities presented to them by national park 
representatives. For example, when Voyageurs National Park developed 
its management plan in recent years, the park attempted to engage the 
local government and the community in the process by forming what they 
called a ``consultation group.'' But when local government 
representatives realized the process would not be based on consensus 
and that they could not dominate the discussions, they dropped out of 
the process. Even when the park offered to pay for a person to work on 
the General Management Plan on Koochiching county's behalf, the park's 
offer was rejected.
    In addition, actions by local communities are not always in the 
best interests of their national park neighbors, and therefore not 
always in the national interest. In an unfortunate case on Fire Island 
National Seashore, for example, local communities have failed to 
implement New York state law to prevent coastal erosion by limiting 
construction in the dunes. Such construction destroys the dune system 
and accelerates erosion, and could ultimately prompt property owners to 
ask the Federal government to keep their houses from falling into the 
ocean by implementing a costly and environmentally questionable re-
sanding program. In this case, the National Park Service's objections 
to the building permits have been ignored.
    And for many years, Gatlinburg, Tennessee refused to require the 
use of bear-proof containers, despite the problems posed for Great 
Smoky Mountains National Park and the bears by the town's refusal.
H.R. 4622
    Although we agree that communication between parks and gateway 
communities is important and worthwhile, and that cooperative endeavors 
can produce excellent results, we believe that H.R. 4622 as introduced 
would be counterproductive at best and harmful at worst. We are more 
than willing to work with you to develop alternatives that facilitate 
productive relationships between national parks and gateway 
communities. However, we cannot support H.R. 4622 until significant 
changes have been made.
    First, the bill provides preference to gateway communities over the 
rest of the public by exempting them from current National 
Environmental Policy Act requirements that dictate when cooperating 
status is justified. NEPA authorizes cooperating status where a 
potential cooperating agency has jurisdiction by law over the specific 
issue being considered or has special expertise. Therefore, we 
emphatically reject the provision in the bill as unnecessary and 
unwise. It provides gateway communities, as a matter of right, with 
much greater weight in national park management and decision making 
than the rest of the American public, regardless of the issue or the 
expertise the community possesses. To paraphrase Freeman Tilden, the 
cooperating agency provision implies title to rights for gateway 
communities that elevates the interests of those communities in 
national parks above the national interest.
    In fact, by virtue of their proximity to parks, gateway communities 
are already in a unique position to participate in public comment 
processes with regard to park management. This, coupled with the many 
examples where gateway communities and national parks are already 
engaged in highly productive joint efforts, makes us question the 
justification behind the cooperating agency provision. Furthermore, the 
bill attempts to ``mandate'' cooperation in a one-sided fashion, when 
we know that genuine cooperation is a function of partnerships and 
relationships that build trust over time. A mandate to cooperate is not 
likely to foster the kind of cooperative spirit that is already 
developing between so many parks and their neighboring communities, and 
could be counter productive.
    Second, at a time when the national park system is underfunded by 
32 percent and the national park maintenance backlog exceeds $5 
billion, the bill calls for parks to further deplete their scarce 
resources by providing financial grants and technical assistance to 
gateway communities. But in many cases, parks simply lack key 
personnel, and many parks likely lack the planners the bill envisions 
should assist communities. We agree with the Chairman that technical 
assistance can be useful and beneficial for the communities and the 
parks, but the potential benefits have much to do with how the 
assistance is structured and who is available to provide it. In 
addition, we do not believe that 385 national park superintendents 
should be required to administer the kind of new grant program the bill 
contemplates, especially at the expense of their already scarce 
resources. Furthermore, the bill creates a host of new paperwork 
requirements for the National Park Service, which would undoubtedly 
siphon precious resources away from the parks' core missions. Finally, 
we urge the subcommittee to consider incentives that are better 
directed at discouraging gateway communities from taking actions that 
can adversely impact park resources and visitor enjoyment. The bill is 
quite one-sided in this regard.
    Third, the bill appears to require that Federal land agencies 
produce regulatory impact statements for an enormous range of 
activities that could impact local communities, including any ``plans, 
decisions, or policies'' that could have a significant impact on them. 
This has the potential to create an enormous burden for the National 
Park Service and other Federal land management agencies, to delay 
actions necessary to protect park resources, and to lead to litigation 
or other legal maneuvering against parks over whether parks should have 
produced such statements and over whether participation was 
``meaningful''. Such a requirement is wholly inappropriate in the 
national park context, and would provide gateway communities with 
primacy over the national interest. Rather than foster cooperation, we 
fear that this provision could generate conflict that gives gateway 
communities far more leverage than is justified over the national 
interest.
    Finally, we believe the application of H.R. 4622 is overly broad. 
It takes a one-size-fits-all approach to the missions of Federal land 
management agencies and does not appear to acknowledge the vast 
differences among many national park units.
    Taken together, the provisions in the bill could easily be used by 
some forces within gateway communities to stymie the National Park 
Service's park management needs and requirements. We believe that 
enacting them would be an enormous mistake and could unwittingly 
jeopardize the precious treasures in our national parks.
    We suggest a different approach. First, we recommend an analysis of 
existing authorities for the Park Service to provide financial and 
technical assistance to gateway communities. Clearly, technical 
assistance for gateway communities in how to effectively engage in land 
use planning can be beneficial, and if impediments exist, they should 
probably be rectified. Any gaps identified in the review could be 
addressed in legislation.
    Next, we would rework the grant program in the bill to authorize 
the Secretary of the Interior to make grants to local governments to 
develop plans that aid in park resource protection and facilitate 
community involvement in the kinds of cooperative endeavors that have 
been undertaken at many national parks. Clearly, such grants could be 
beneficial to gateway communities. They should not, however, be 
subtracted from Park Service operating funds.
    Then, rather than focus so much effort legislating a preferred 
position for gateway communities in national park decisions or 
dictating how park superintendents assign their scarce personnel, we 
respectfully suggest that the subcommittee should work aggressively to 
encourage the Committee on Appropriations to provide parks with the 
funds they need. Some parks already provide technical assistance to 
their gateway community neighbors, but they frequently do so in the 
face of very scarce resources. The better funded the parks are, the 
more able they will be to provide technical assistance and have park 
personnel work directly with communities on time consuming planning 
matters.
    Finally, we would encourage the subcommittee to require agencies 
that undertake or propose actions that could have a significant adverse 
effect on cultural or natural resources in national parks to work with 
the parks to mitigate any such impacts before such actions are allowed 
to proceed. Ideally, such a provision would also require the agency in 
question to refrain from taking an action in an area adjacent to a 
national park unit if the action was likely to have an adverse impact 
on park values. Such initiatives would help address significant threats 
to our national parks, where problems like sprawl place park ecosystems 
under increasing stress.
Conclusion
    In summary, we respect the Chairman's desire to enhance the 
relationship between the National Park Service and local communities 
where relationships could be improved. However, as the bill is drafted, 
we believe its effect goes well beyond that goal and, in some cases, 
could work against it. As introduced, H.R. 4622 places the desires of 
local gateway communities above the national interest. The number of 
successes where parks and local communities work together to devise 
creative solutions to common challenges continues to grow without the 
kind of mandate the bill includes, and we believe that rather than 
facilitate cooperation, the bill would create roadblocks that inhibit 
the National Park Service from doing its job. Finally, any legislation 
related to gateway communities must also address the need to focus much 
more on protecting parks against actions undertaken adjacent to park 
boundaries that have an adverse impact on visitor experience, park 
ecology, or a park's cultural or historic values.
    Thank you for the opportunity to testify. I am happy to answer any 
questions you may have.
                                 ______
                                 
    Mr. Radanovich. Mr. Stephen Thomas, the Northern Plains 
Regional Director of the Sierra Club, from Sheridan, Wyoming. 
Welcome, and please begin.

STATEMENT OF STEPHEN THOMAS, NORTHERN PLAINS REGIONAL DIRECTOR, 
                 SIERRA CLUB, SHERIDAN, WYOMING

    Mr. Thomas. Thank you, Mr. Chairman. It is indeed an honor 
for me to be here today. I don't often get to this part of the 
world from Wyoming, but I am thankful to be here and glad you 
allowed me to testify.
    I served, as a little bit of background, I served as county 
commissioner in Teton County, Wyoming for a couple of terms 
where, incidentally, the county is 97 percent Federally 
managed, including Yellowstone, Grand Teton National Park, two 
national forests, and a national wildlife refuge. I also 
served, at the request of the Wyoming State Governor, the Tri-
State Grizzly Conservation Committee, the State of Wyoming 
Grizzly Bear Management Committee, and I presently serve on the 
board of directors of the University of Wyoming Institute for 
the Environment and Natural Resources.
    During the years that I was county commissioner, I owned 
and operated a store in Jackson, Wyoming, and I was dependent 
on Yellowstone and Grand Teton National Park for my livelihood. 
I must say, however, I felt very fortunate to be there, because 
with 3 million people blowing through there every year, it is 
darn hard not to make a living in that gateway community. It 
would be--I thought it was, really--almost be impossible to go 
broke there with that kind of a captive audience coming through 
every year. And I always felt as the county commissioner and as 
a business owner, we actually had more impact on the parks than 
they did on us.
    The parks, Yellowstone, Grand Teton, there are going to be 
3 million people coming through there, and there has been for 
the last 25 years, and there are going to be increased numbers 
for the next 25 years. I would predict that we had a much 
greater impact by what we did in planning and zoning outside 
the park than what the park did to us.
    And I agree that citizens in these communities should have 
a say in or access to the planning process in the national 
parks and national forests, just like other Americans. But, you 
know, we already have that. I can walk down the street, talk to 
the National Wildlife Refuge Superintendent, or the Forest 
Service Supervisor or a National Park Superintendent. I know 
him on a first-name basis. They notified me, when I was county 
commissioner, of any plans they might have coming. I went and 
talked to them.
    The point is that we already had a very elevated ability to 
cooperate and interact with the agencies, more so than the 
person living in Hoboken, New Jersey or somewhere else. And 
Yellowstone may be as important to that person as it was to me, 
maybe for a different reason.
    So I never did feel like we needed any--or I still don't 
feel like we needed any more help with that, because we already 
had it. I never thought Grant Teton or Yellowstone was a county 
park. I thought the key operative word is ``national'' park. So 
national interest, I always felt, should prevail over local 
interest, even though I made my living there, because I felt 
like if the national interest prevailed, my interest would 
ultimately prevail, because I would still be able to make a 
living if that park was taken care of.
    And my fear is if you elevate elected officials to 
cooperating agencies, like what happened with the snow machines 
in Yellowstone, the five counties and the three States 
surrounding Yellowstone were elevated to cooperating agency 
status, that economic interest prevailed. Many of these elected 
officials, myself included, had an economic interest in the 
park. And so many of them protect the economic interest at the 
expense of other park values, or that is how they view things.
    The perfect example is snow machines. Everybody admits they 
pollute the park. EPA and the Park Service want them banned, 
and yet the five States and the three counties are still out 
there lobbying, trying to keep them from being prohibited.
    I also submitted to you all four resolutions adopted by 
Fremont County, which is a gateway community to Shoshone 
National Forest. The two of them outlawed grizzly bears and 
other species deemed undesirable by the county commissioners 
within the boundaries of the county, even though about 40 
percent of the recovery area for grizzly bears lies within 
Fremont County's boundaries and the grizzly bears have been 
there since the last glaciation.
    So the point is that local governments do not always 
demonstrate the greatest regard for natural resources and 
natural wonders. It is many times too highly influenced by 
economic considerations.
    Incidentally, those resolutions were adopted without any 
public input. The public was not notified of those. They were 
adopted in a secret meeting in Fremont County. So that is 
another one of my concerns.
    So, as for the provision in the legislation requiring or 
allowing or maybe requiring--I am not sure I understand it--
that the gateway communities and all the incorporated cities 
can be elevated to cooperating status; in Yellowstone, for 
instance, there are five counties, three states, and at least 
10 incorporated cities. That would create a hell of a 
bureaucratic mess, I would think, in terms of trying to 
administer any kind of management plan if everyone was elevated 
to the same level.
    Again, I guess I see my time is up, I would like to 
emphasize that I think local officials already enjoy a very 
much increased influence in decisionmaking processes of the 
agencies in which they are fortunate to live in. Thank you.
    Mr. Radanovich. Thank you very much, Mr. Thomas, for being 
here, as well as the testimony from everybody else.
    [The prepared statement of Mr. Thomas follows:]

  Statement of Steve Thomas, Northern Plains Regional Field Director, 
                              Sierra Club

    Mr. Chairman and members of the Committee, thank you for the 
opportunity to testify here today. This is certainly a topic worth 
discussing. I will try to establish by my testimony that the result of 
this legislation will be the ``control'' of National Parks rather than 
``cooperation''. My name is Steve Thomas, and I live in Sheridan, 
Wyoming. I served 2 terms as a Teton County Commissioner in Jackson 
Hole, Wyoming, where I owned and operated a grocery store for many 
years. I also served, at the request of Wyoming's governor, on the 
``Tri-State Grizzly Conservation Committee'' and the ``State of Wyoming 
Grizzly Bear Management Committee''. I presently serve on the Board of 
Directors of the ``University of Wyoming Institute for the Environment 
and Natural Resources''. For the past year, I have been employed as the 
Northern Plains Director of the Sierra Club. I offer this background to 
you to illustrate my extensive past and current involvement with issues 
involving the National Parks and Forests.
    During the years that I operated my store in Jackson, Wyoming, I 
was dependent on Yellowstone and Grand Teton National Parks for my 
livelihood. Many people in gateway communities surrounding National 
Parks are in a similar situation. I must say, however, that I always 
felt I was very fortunate to be in business in such a situation. With 
some 3 million people blowing through Yellowstone every year, it would 
be darn hard not to make it in the tourist business. I also always felt 
that we adjacent to the Parks had much greater impacts on the Parks 
than they did on us. As long as the Park Service protects the natural 
wonders and wildlife, people will always come to Yellowstone. You see, 
it is not the towns on the borders of the Park that people come to 
visit but rather the Parks themselves. Yes, we were indeed fortunate to 
live in a gateway community and to be able to benefit from the cash 
cows that National Parks are for surrounding communities and states.
    Now, I agree that citizens in these communities should be able to 
access the Parks' planning process just like other Americans. But you 
know something, those of us that live in these communities already have 
superior access than the citizens of the rest of the Country. When I 
lived in Jackson and was a County Commissioner, I could walk down the 
street and visit with the Supervisor of the Bridger Teton National 
Forest. On the way there, I could stop off and visit the Superintendent 
of the National Elk Refuge. Then I could get in my car and drive 14 
miles to visit with the Superintendent of Grand Teton National Park. 
All of these people I knew on a first name basis. In fact, I found them 
to be very open to my concerns and ideas. I had great influence in 
decisions--much more than other citizens across the Country. This is 
not to say that I always agreed with their decisions, but I did not 
need special statutory authority to be involved with the Parks' 
planning process. I think it would be a shame to elevate local 
officials in gateway communities even further than they already are 
above the average citizen who also has a great stake in what happens in 
our National Parks.
    When I was a County Commissioner, I never thought that Grand Teton 
or Yellowstone was a County Park. These Parks exist to protect natural 
wonders and for the enjoyment of all citizens of this Nation, not just 
those of us who are fortunate enough to live nearby. The key word here 
is NATIONAL. These spectacular places are a source of pride and wonder 
for the people of this Country. The Parks primary purpose is not for 
people like me to make money. That is one of the points I would like to 
make regarding elevating local elected officials to a higher level than 
average citizens: if you elevate local officials of gateway 
communities, many of whom have an indirect commercial interest in these 
Parks, you will heighten an already extensive and powerful local 
economic influence in Park decisions.
    Let me cite a glaring example of this local economic influence. 
Snow machines. Nearly everyone admits that snow machines are polluting 
Yellowstone and Grand Teton Parks, causing severe problems with 
wildlife and other Park values. The Park Service, as well as the EPA, 
has conducted exhaustive studies regarding these machines and their 
impacts. All conclude that these machines should be banned from the 
Parks. Yet, the surrounding five Counties and three states have mounted 
a campaign for purely economic reasons to keep these machines in the 
Parks. Even in the face of overwhelming scientific evidence that these 
machines harm the Parks and despite overwhelming public support for 
banning snow machines, local officials have exercised their substantial 
influence to keep these machines in the Parks.
    The four County resolutions I have submitted to the Committee 
provide you with another example of what can happen when local control 
is increased. Keep in mind that Counties in Wyoming adopt law by 
resolution, so the four resolutions submitted to you have the force of 
law in Wyoming and, also, that these Commissioners maintain that their 
county governments have jurisdiction over all public/federal lands in 
their County, including the Wind River Indian Reservation. Three of 
these resolutions were adopted by the Fremont County, Wyoming, 
Commissioners purportedly to outlaw grizzly bears, wolves, and any 
other wildlife species that the Fremont County Commissioners deem 
``undesirable''. The 4th resolution prohibits the Forest Service from 
adopting food storage rules which help protect forest users from bears 
and other wildlife. The Commissioners instructed the Sheriff to enforce 
these resolutions by ``any means necessary'' and instructed citizens to 
ignore the Forest Service's food storage rules. Oh, incidentally these 
resolutions where adopted without prior notification to the public, so 
county residents had no opportunity to have input. Similar resolutions 
have been adopted by other gateway local governments in Wyoming.
    I cite these resolutions to illustrate the real world in western 
Wyoming regarding natural wonders and how certain local elected 
officials regard them. Enforcement of these local laws would extirpate 
endangered species from the entire County just at a time when the U. S. 
Fish and Wildlife Service is thinking of removing these animals from 
the Endangered Species List and after the Federal Government has spent 
millions of dollars on the protection and recovery of these animals. 
Also, killing or removing grizzly bears or wolves would be in stark 
contrast to the wishes of the people of the United States who have 
largely supported recovery and protection of these animals in the 
Yellowstone area. Now, I know that these local officials claim they did 
not have enough input into the Grizzly Bear Recovery Plan and, thus, 
they need the bill before you today to protect their interests. But I 
am here to tell you that we invited them to participate with the 
Governor-appointed ``Citizens Bear Management Committee'', and they 
chose not to show up. We even held all the meetings in Fremont County, 
Wyoming, and still they chose not to participate. The point is that 
local officials in certain gateway communities are not interested so 
much in cooperation as they are in increasing their already substantial 
influence in Park decisions and taking control of the National Parks.
    As for the provision in the legislation being considered by this 
Committee to provide funding for gateway communities to participate in 
a Park's planning process, the Counties in the West with large tracts 
of federal lands already get huge federal subsidies in the form of 
Payment-in-Lieu-of-Taxes (PILT) and other sources of federal government 
funding. In Teton County, Wyoming, we split all sales taxes collected 
inside Yellowstone with a 2nd gateway County, and we kept all the sales 
taxes from Grand Teton National Park. This resulted in hundreds of 
thousands of dollars in income per year for our County. We did not have 
to provide any services for the Parks except a couple of ballot boxes 
for Park employees to vote. They even paid us for trash disposal. I 
used to call it ``manna from heaven''. Just think, there is only 3% of 
Teton County that is privately owned, and the rest is public lands 
including Yellowstone and Grand Teton National Parks; yet, we collected 
taxes from all those lands for doing nothing. For example, we did not 
maintain roads, we did not provide law enforcement, we did not provide 
fire protection, and we did not have to do any of the administrative 
activities we did for the rest of the County. Such a deal!
    Finally, exactly how would the Park Service implement this proposed 
legislation? If all incorporated gateway cities and all gateway 
counties are elevated to Cooperating Agency status, Parks such as 
Yellowstone with 5 gateway Counties and at least 10 gateway 
incorporated cities would have 15 people that would be ``cooperators''. 
This would mean that, as a group, local officials' influence would be 
even more disproportionate to that of other citizens of the Country.
    In summary, this legislation is not about cooperation but rather 
about control. The cooperation that the agency presently demonstrates 
with local officials already goes above and beyond the call of duty. 
What certain Counties are angry about is that they do not get their way 
all of the time. While I may have disagreed with certain Park 
decisions, I respected their professional ability to manage the Park, 
and I knew that I did not have the expertise to do that. As a former 
gateway County Commissioner, I recognize gateway government officials 
already have more influence over Park decisions than all other citizens 
of this Country. It is important for you to recognize that many times 
the interests these local officials represent conflict with Park values 
as demonstrated by the snowmobile and the endangered species issues I 
cited previously. Management authority over the Parks is properly 
vested with the Park Service in cooperation with other federal 
agencies, all of whom are required to protect national interests. 
Certain County officials who seek to pollute a Park's resources and 
kill every species of wildlife they dislike obviously should not be 
given increased influence and control over Park decisions.
    Thank you again for this opportunity to testify.
                                 ______
                                 
    Mr. Radanovich. I am the lucky guy. I get to ask all the 
questions here. If you will indulge me, I do have, I think, 
good questions for just about everybody here.
    But, Mr. Thomas, I would say to you, if you had mentioned 
living near a National Park Service when you were in business, 
and being an active member in what would be probably termed a 
gateway community, and citing all those examples of whether 
cooperation did exist, if you were not--say that the parks that 
surrounded you were not all that willing to participate, would 
your view of this legislation change, do you think?
    Mr. Thomas. Mr. Chairman, I don't think so. And I will tell 
you why. You know, I may not have always agreed with what the 
parks decided, but I can't imagine and I don't think anyone has 
ever cited any place where they will not talk to you. If you 
are a county commissioner, you pick up the phone, I think they 
are going to talk to you. Like I say, the complaint here more 
is that they didn't decide to do what we wanted them to do.
    Mr. Radanovich. That is clearly a difference.
    Mr. Thomas. And so, you know, it has just not been my 
experience. And also my experience in other parts of the State 
where I have lived, in Park County, Wyoming, and in Sheridan 
County, Wyoming where, you know, I could pick up the phone and 
talk to these guys or I could take a walk down the street, I 
never had a problem with any of the agencies in that regard.
    Mr. Radanovich. I view this legislation sometimes as the 
possibilities of the local communities providing reality checks 
to some of the things that the parks do in the formulation of 
their plans and such, and in some ways providing maybe a 
balance of influence over various agencies, which I would say 
Sierra Club or Parks Conservation Association might be a part 
of, that might need checking sometimes. For example, just some 
of the things that the Park Service, because the lands clearly 
belong to the public--I don't think there is any dispute in 
that whatsoever--but I guess the way I view the legislation is 
that the input that the local communities do bring into the 
process is a sense of reality, when sometimes influences from 
your organizations can come to some pretty far-fetched--not all 
the time, but in your extreme--some conclusions that may not 
have a foot in reality. Care to comment?
    Mr. Thomas. Mr. Chairman, I have been in both places. I was 
a business owner in Jackson, Wyoming for 15 years, which is a 
true gateway community with 3 million people going through 
there every year. And I tell you, I always felt like that I 
influenced the decisions more than any environmental group 
could even dream about because of my daily access to these 
folks and to the agency people. And the agency people, not like 
they have been portrayed here today, come blowing into town not 
knowing anything about anything--the agency people were members 
of our community and participated in the Chamber of Commerce 
and Rotary and all the different service clubs, so us business 
folks had a lot of access to them. And we had the wherewithal 
and the money to pressure them and to get our ideas 
incorporated. So I say I would take a little different tact on 
that from being on that other side for so long.
    Mr. Radanovich. If I may ask you one question, and one of 
you, Ms. Loomis, as well: Do you feel this legislation is a 
threat to the influence that you have on the national parks?
    Mr. Thomas. No, I don't think so. But I think it does 
threaten the average citizen in that it elevates a certain 
special economic interest to a higher level. That is my fear.
    Mr. Radanovich. Ms. Loomis.
    Ms. Loomis. I would agree with that, and also I would--
    Mr. Radanovich. You would agree?
    Ms. Loomis. With what he had said as well, and I believe it 
creates an additional burden on an already overstrapped agency. 
I think the point that Mrs. Christensen was making through her 
questions was that the authority already exists for many of 
these Federal agencies to offer the kind of involvement and 
cooperation that you are seeking with your legislation. It 
hasn't been evenly applied, and we can agree with that.
    And I think partially that, frankly, as these parks don't 
have the people, the resources, to do the kind of outreach, 
that is necessary. And if your legislation can provide through 
funds other than base funding, important grant programs and 
resources for the parks to be able to do a better job of 
outreach, then I think it could be a very good thing.
    Mr. Radanovich. Interesting. One of the things that has 
occurred in Yosemite over time is that they are beginning to 
look at the satellite communities to locate some of the 
administrative functions of the Park Service and some other 
things. And this has been done, I think, by a conscious effort 
of the National Park Service to do outreach to those 
communities. It was not the case. Actually, it is just 
basically dependent on the person that is in the position as 
Superintendent of the Park Service that this outreach is 
occurring, because for many, many years the reaction was 
different; that the park would solve all their problems within 
their own borders, and not doing any of the collaborative stuff 
that would end up costing the Park Service far less money and 
far less damage to the environment in the long run.
    Ms. Loomis. One of the things--I don't know if you have 
become aware of it, but the Park Service is reevaluating its 
vision statement. One of the things it is looking at is 
focusing on the whole concept of partnership and elevating its 
importance within the agency. And I think that the agency 
itself is trying to take a more aggressive approach to that 
kind of outreach.
    Mr. Radanovich. Thank you very much. Mr. Davidson, how do 
you think that under this bill that the State Department of 
Tourism might design or designate a gateway community?
    Mr. Davidson. As it is written in H.R. 4622, both the State 
tourism office or the Federal land management agency would have 
the opportunity to designate gateway communities. There are a 
number of different ways. None of them necessarily stand 
independent. It could be based on visitation to the national 
park or the forest. It could be based on the dependency of that 
gateway community on visitor expenditures and how that relates 
to the overall balance of the economy. Is this a community that 
is more than 50 percent dependent, if you look at the total 
economic structure of that economy, on visitor expenditures? Is 
it a sizable portion thereof? The size of the community, their 
distance from the public lands.
    The thing is that each of these could be important and 
could be a very important part of the formula. But what I find 
most important as it is laid out in H.R. 4622 is that each 
State has that ability to define, based on the specific makeup 
of their State and what the current economic needs are as well 
as those environmental and social needs that have been touched 
on today by the Committee.
    Mr. Radanovich. Thank you very much. Mr. Warren, how do you 
respond to the complaint that the gateways actually profit from 
their proximity to Federal lands and therefore should be happy 
with whatever they might be able to get out of it?
    Mr. Warren. Well, certainly in a case where there are 3 
million people blowing through town, I am sure that does 
benefit that particular community. But not every gateway has 
the benefit of that sort of visitation. Some of the least-
visited park units out there have sometimes less than 10- to 
20,000 people going through their communities, and yet often 
they are required to provide those Services such as rescue, you 
know, ambulance services, and all sorts of other services, 
sheriff services, that they are not compensated for.
    So there are instances where there is a great benefit to 
being next to a national park or other public lands management 
unit, but there are many, many more instances where they are 
not benefiting because there aren't enough people to pay for 
that sort of impact. Many communities only have a small window 
of time each year when they get a little bit of business, and 
often they are kind of hanging on by their fingernails to be in 
business.
    Mr. Radanovich. Thank you, Mr. Warren.
    Ms. Hale, how do the Forest Service, the Park Service, and 
the BLM, which you mentioned in your testimony and various--I 
mean multiples of those agencies that you are dealing with in 
Montrose--how do they differ in their ability and inclination 
to collaborate with you and Montrose County? Do you feel that 
one is better than the other, or do you get equal treatment?
    Ms. Hale. That changes on a daily basis. And at any given 
time and day, how our citizens and how we as elected officials 
feel about a different agency depends on where they are 
standing on different issues. And the National Park Service at 
the present time happens to be at the bottom on the list 
because of the Black Canyon in Gunnison water filing.
    I wish that Mrs. Christensen was here, because I can cite a 
specific example of a bad experience, and that happens to be 
the Black Canyon, Gunnison, with the water filing. The National 
Park Service last year, without any notice to local residents 
or local officials, filed on a 12,000 cfs water right. And, 
unfortunately, when you take our water, you take our land. So 
not only does this have extreme ramifications from the 
standpoint of economics, but just on the heart and soul of our 
community. And we found out through the Justice Department. And 
thankfully there were over 380 letters of opposition and, also 
thankfully, the Federal agencies outside of the Park Service 
were all opposed to the water filing. So now have you the 
Bureau of Reclamation, Fish and Wildlife, opposing the National 
Park Service water filing action.
    But there have been times when the BLM, which recently--now 
they are conducting their back country wilderness study, which 
incorporates 19,000 acres of private ground. When our citizens 
see a big black line drawn around their private grounds, around 
a wilderness area or recreation area or monument of some kind 
or park of some kind, they immediately say oh, my gosh, they 
are going to regulate what we do on our land.
    At any given day and time, the Park Service could be the 
agency of choice, or the BLM, or, you know-- we actually are 
getting along quite well with the Forest Service right now on 
our county forest restoration partnership. I did want to thank 
the Forest Service folks who are here today. We are working 
with two other counties in New Mexico and Arizona on a pilot 
forest, and we are very excited about that because it will 
address a lot of our wildfire and economic use. So like I said, 
it just depends on where you are at on any given day.
    I guess the thing that I like about your bill is that 
saying you are collaborating, cooperating, and communicating is 
one thing, but doing is it another. And that is the key, you 
know. And I do think it depends on the philosophy of the parks 
director, of the local agent, whoever that may be, the local 
bureau director. Because I talk over and over again--and we are 
one of those small parks, you know. I tell people the Black 
Canyon is a 2-wow park. The people come in, they look over, 
wow; they go to the next place, wow; and they leave town. They 
don't eat in our restaurants, they don't stay in our hotels. It 
doesn't have the economic impact that a Yellowstone has, but it 
is a national park. It is a wonderful piece of our community. 
We love it and we are proud to have it as a park.
    But again I don't have the benefit of 3 million visitors, 
but I still have to do search and rescue, I still have to do 
roads, I still have to do all the infrastructure and things 
that those parks demand. And so I commend you on drafting this 
legislation, and I would put my full support and that of CCI 
and NACo behind it.
    Mr. Radanovich. Thank you. One more question on the 
agencies: What do you attribute to be the cause of the various 
reactions that you might get from a various action from 1 day 
to the next?
    Ms. Hale. Well, I think--boy, is there just one cause? 
Well, part of the issue is I think historically the driving 
force has been from the top down. Management has been from the 
top down. And where I see this going is management plans being 
from the bottom up. Getting the partners--and I do prefer the 
term ``partner'' for local government over stakeholder--getting 
the partners in the room together. And I think the gentleman 
here--Mr. Duncan, is it--spoke about how the people have lived 
there forever and ever. My husband's family homesteaded on the 
border to the Black Canyon National Park in the 1906. They 
built the cubby, began tunnels that brought water to that 
valley. They have a vested interest in being good stewards not 
only of the park but the land adjacent to the park. They have 
lived there, and my kids are going to live there, and their 
grandchildren.
    So if the land use management plan comes from the bottom 
up, it make more sense because it works symbiotically with the 
private landowners. If the plans come from the top down, the 
locals immediately reject them because they feel like, gee, if 
this came out of Washington--they have no idea what has 
happened here for the last 100 years.
    And in our particular case, people in the East have a 
tendency to not understand water law. I can say that because I 
actually grew up in Binghamton, New York. So, you know, this 
has been a new thing for me, too, to represent a county that is 
totally different than where I was raised for 21 years.
    So I think that approach--I think what your bill does, what 
it does is, it starts to get that bottom-up creativity in 
management and it helps to build that communication, 
cooperation, collaboration. Because the ideas aren't all coming 
from the scientists. You know, we hear about everything has to 
be based on sound science and everything, and that is great. 
But sometimes the scientists are the stewards that have worked 
that land. It doesn't do us any good to beat up the ground and 
wear it out and take advantage of the wildlife and hunt them 
out and over-hunt and over-graze and all those things, because 
that is how we make our living. So we need to continue to 
rejuvenate that.
    Mr. Radanovich. Thank you. Thank you, Ms. Hale.
    Ms. Loomis, the Park Service management policies require 
that the park superintendents monitor and participate in local 
zoning and planning that takes place outside the park. In your 
opinion, do you think that gateway communities should be able 
to expect the reciprocal relationship? If the Park Service is 
required to do that, shouldn't the gateways be able to be a 
participant in that as well?
    Ms. Loomis. Yes. I mean, I believe that the gateway 
communities are expected--I think it is important that the Park 
Service not only notify gateway communities, but the American 
public as a whole when they are planning significant management 
actions. Should gateway communities then be given sort of an 
advance notice, ahead of the rest of the American public? I 
don't know if I agree with that. Because I think that the 
entire American public are owners of these parks and have 
interests and are concerned about what is going on within park 
boundaries. I can see where, when a park is working on a 
collaborative solution to a problem that also extends into the 
gateway community--and one that I am familiar with is 
transportation--I see where that would require probably a 
higher level of communication with the gateway community, 
because it is one that the community has to be part of the 
solution.
    Mr. Radanovich. Can you tell me what would be the 
difference between an agency that cooperates with, say, a 
Yellowstone in the development of--in this planning process, 
for example. That is already happening. Say in this bill it 
would be--what is the difference between what is already 
happening and what would be--the cooperation that would be 
occurring in my bill which would be the--I mean, an agency that 
is already participating in a planning process today is already 
viewed as a cooperative agency, because that relationship 
already exists because they were allowed in to be a cooperative 
planner in the agency. So I am not sure that I understand. Is 
this issue being elevated as a result of this bill?
    Ms. Loomis. In your bill you are allowing any gateway 
community to receive cooperator status, which under NEPA means 
they get an elevated--they get a seat at the table. They have 
the privilege of having more involvement in the planning 
process. But cooperator status under NEPA is supposed to be 
determined by whether or not that agency or entity has legal 
jurisdiction over the property at hand. If it is an issue 
within a park and how the resources within a park are managed, 
I don't see how a gateway community has legal jurisdiction over 
that and would thus warrant being granted cooperator status.
    Mr. Radanovich. So you view the relationship by local 
communities in the process different under this legislation 
than it would be under one that is cooperating with the Park 
Service voluntarily?
    Ms. Loomis. I see where your legislation--right. Your 
legislation allows them to have cooperator status under NEPA 
which, like I said, is an elevated form of involvement, which 
would be elevated above what the average American would have, 
just participating and responding to scoping process or 
something like that.
    Mr. Radanovich. Thank you. Mr. Thomas, a couple questions. 
Do you believe that Federal agencies are giving up any 
authority in this bill, if passed? And if so, could you please 
explain how that might take place?
    Mr. Thomas. Mr. Chairman, I believe they might be in terms 
of, as I understand cooperating agency status, you are involved 
from the very get-go. That means when they start their internal 
discussions of the NEPA process and what is going to be in the 
actual scoping document, that goes out to the general public, 
so you have an opportunity to shape the direction of that 
before it goes out to the public. And it seems to me that if 
you have a manager, a Federal land manager who is managing a 
piece of Federal land, that he and his staff or she and her 
staff and the other Federal cooperating agencies should have 
the first crack at that before it goes out to the general 
public, or the gateway communities for that matter.
    Mr. Radanovich. Thank you very much. I want to ask that 
question of some of the other members of the panel. Please feel 
free. I want to ask you, Mr. Davidson, but if you don't have 
the planning background to know the answer to this thing, you 
know, please feel free to beg off. But I did want to ask you 
the same question: Do you believe that Federal agencies are 
giving up any authority in this bill? If you are not, feel free 
to say I am not qualified to answer. But I am trying to get a 
view from the other side as well.
    Mr. Davidson. I appreciate that opportunity to say I am not 
qualified as a planner and therefore I would not be qualified 
to respond.
    Mr. Radanovich. Mr. Warren or Ms. Hale?
    Mr. Warren. Well, one thing I can say is that, from a 
community perspective, when we are impacted we do have a right 
to be part of that process. And I think that is the key is who 
determines what impact obviously, and you have to be invited 
in. You can't be invited in by yourself. You have to have the 
authority to be invited in.
    That is what your legislation will enable, is that 
opportunity to be identified as a gateway community; for 
example, when Ms. Hale indicated the impact that a small 
national park might have on rescue, as an example. In their 
management plan, who do they go to when there is an incident? 
Those are the things that the community ought to have a say in 
and be part of that process. And so I don't think it takes 
away. It in essence puts an obligation on situations which are 
changing and should be seen as a new obligation. So I don't 
think you can say it takes away anything.
    Mr. Radanovich. Ms. Hale.
    Ms. Hale. I did speak with our Parks Director, Sheridan 
Steele, and let him know that I was coming out here to testify 
on this. I was very supportive of the bill. His concern, of 
course, was funding; and I don't know as I agree with his 
concern. But I think the spirit of the bill certainly says it 
all, and that they need to work with local communities. And I 
think that the Park Service is realizing they need to do that. 
So I do not see this as something that would hinder or diminish 
the Federal agency's authorities or anything like that. In 
fact, I think this would enhance it, because they would have 
community support and they would have community buy-in. So I 
think it would be a benefit. And I am certain that Sheridan 
Steele would agree with me on that.
    Mr. Radanovich. OK. Well, that ends my questioning and I 
guess that ends the panel's questioning, since I am the only 
one left up here. But I really want to thank everybody for 
being here. I appreciate--Mr. Warren.
    Mr. Warren. One last thing I would like to say. One of the 
things that I think many of us love about these Federal 
agencies is the decentralized process that they go through of 
making decisions, but also one of the things we hate about 
these agencies is the decentralized process they go through in 
making these decisions. Your bill gives a level playing field 
to any community, whether they are adjacent to Yellowstone or 
adjacent to whatever that small national park is. Again, I 
think that is the message that several of us would like to 
leave with you, is that formalized process that you are 
encouraging to happen with this legislation.
    Mr. Radanovich. Thank you very much. Again, thank you very 
much for being here. I appreciate your testimony and the time 
you took to be before the Committee. And with that, this 
hearing is adjourned. Thank you again.
    [Whereupon, at 3:45 p.m., the Subcommittee was adjourned.]

                                   - 

</pre></body></html>
